<html>
<title> - HIGHWAY SAFETY</title>
<body><pre>[Senate Hearing 107-759]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-759

                             HIGHWAY SAFETY

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE


                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                   FEBRUARY 27, 2002--WASHINGTON, DC

                               __________

        Printed for the use of the Committees on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

82-802              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

          Subcommittee on Transportation and Related Agencies

                   PATTY MURRAY, Washington, Chairman
ROBERT C. BYRD, West Virginia        RICHARD C. SHELBY, Alabama
BARBARA A. MIKULSKI, Maryland        ARLEN SPECTER, Pennsylvania
HARRY REID, Nevada                   CHRISTOPHER S. BOND, Missouri
HERB KOHL, Wisconsin                 ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
PATRICK J. LEAHY, Vermont            KAY BAILEY HUTCHISON, Texas
                                     TED STEVENS, Alaska
                                       (ex officio)

                           Professional Staff

                              Peter Rogoff
                             Kate Hallahan
                        Paul Doerrer (Minority)

                         Administrative Support

                               Angela Lee


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Senator Patty Murray........................     1
Statement of Hon. Jeffrey W. Runge, M.D., Administrator, National 
  Highway Traffic Safety Administration, Department of 
  Transportation.................................................     3
Safety partnerships..............................................     4
Traffic safety--a personal responsibility........................     4
National Public Health Emergency.................................     4
Seat belt use increase...........................................     5
Primary belt laws required.......................................     5
Impaired driving.................................................     5
Other dangerous driving behavior.................................     5
Strong vehicle safety component..................................     6
Compliance testing...............................................     6
Prepared statement of Jeffrey W. Runge, M.D......................     6
Program highlights...............................................     7
Program budget details...........................................     9
Highway traffic safety grants....................................    17
Statement of Hon. Marion C. Blakey, Chairman, National 
  Transportation Safety Board....................................    18
    Prepared statement...........................................    21
Statement of Millie I. Webb, President, Mothers Against Drunk 
  Driving........................................................    24
    Prepared statement...........................................    27
Overview.........................................................    27
Traffic safety funding...........................................    28
.08 percent blood alcohol concentration (BAC)....................    29
Repeat/high risk offenders.......................................    29
Underage drinking................................................    29
Open container...................................................    29
Statement of Superintendent James W. McMahon, New York State 
  Police, General Chair, Division of State and Provincial Police, 
  International Association of Chiefs of Police..................    30
    Prepared statement...........................................    33
Reduced core program request.....................................    39
Truck and motorcycle safety......................................    40
Share the road...................................................    42
Impaired driving program.........................................    43
Seat belt use in alcohol-related crashes.........................    43
Unspent alcohol program funds....................................    45
Origin of impaired driving problem...............................    47
National leadership need.........................................    48
Repeat offender funds............................................    49
Seat belt goal revision..........................................    52
Need for near-term targets.......................................    52
Click it or ticket program.......................................    53
Targeting diverse populations....................................    54
Lobbying restrictions............................................    55

 
                             HIGHWAY SAFETY

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2002

                           U.S. Senate,    
             Subcommittee on Transportation
                              and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray and Campbell.


               opening statement of senator patty murray


    Senator Murray. This subcommittee will come to order.
    Good morning. This is our subcommittee's third hearing this 
year on the President's request for the Department of 
Transportation for 2003. During our first two hearings, we 
examined in detail the multi-billion dollar increases that are 
being proposed to enhance transportation security. Just within 
the budgets for the Coast Guard and the new Transportation 
Security Administration, the Administration is requesting 
increased funding of more than $5 billion.
    This funding is intended to protect the American public 
against several serious threats, some of them unknown. The goal 
is to keep the horror of the World Trade Center tragedy from 
repeating itself, and I firmly support that goal.
    But today's hearing is about the funding needed to combat a 
known threat, the fact that tens of thousands of citizens die 
on our highways each and every year. In 2001, we experienced 
almost 42,000 deaths on our highway. That is equivalent to more 
than one World Trade Center tragedy per month.
    We do not know if or when the Al Quaida network will again 
strike the American people, but we do know for sure that absent 
a dramatic change in attitude, leadership and action at the 
Federal, State and local level, highway deaths in 2003 will 
rise for a fourth consecutive year.
    We know how to prevent many highway fatalities. We know 
that improved seat belt use saves lives. We know that keeping 
drunk drivers off the road saves lives. We know that strapping 
babies into approved child safety seats saves lives.
    As a society, we made great strides during the 1980s and 
1990s in changing driver behavior and reducing highway deaths. 
Much of the credit for those advances belongs to the Mothers 
Against Drunk Driving. So I am especially pleased and honored 
that Millie Webb, the president of MADD will deliver her first 
testimony before Congress during our hearing this morning.
    Perhaps more than any other organization, MADD has pushed 
our society to do the right thing in getting drunk drivers off 
the roads. Their efforts are born out of shocking and horrific 
losses that their members have endured.
    Yet for all of the advances we made in the 1980s and 1990s, 
we are now seeing a reversal of this trend.
    Highway fatalities rose again last year and alcohol-related 
highway fatalities rose even faster. I am sorry to say that 
when it comes to the percentage of highway fatalities that are 
alcohol related, my home State of Washington is persistently 
above the national average. It is especially true for accidents 
involving individuals that are certifiably drunk, not just 
accidents involving people that have been doing some drinking.
    My State has sought to do the right thing. We lowered the 
admissible blood alcohol content for drivers before this 
subcommittee required it as a matter of Federal law. But 
Washington, like all other States, has a long way to go.
    The time has come for us to admit that when it comes to 
reducing highway fatalities, the easy things have already been 
done. The time has now come to take on the harder challenges: 
Challenges like getting repeat drunk drivers off the road and 
keeping them off the road permanently; challenges like 
addressing head-on the needs of certain target populations who 
bear a much higher risk of dying on the highway than the 
average American.
    African-American children from ages five through twelve 
face a risk of dying in a car crash that is almost three times 
as great as that of white children. Highway death rates for 
Native Americans are a disgrace that should worry all 
Americans.
    Precisely at this time when we should be taking on these 
tougher challenges, the Bush Administration has abdicated its 
leadership on this issue.
    This Administration has requested a $5 billion funding 
increase for transportation security, and I support that. When 
it comes to addressing another scourge that kills a great many 
Americans, the Bush Administration has requested a 22 percent 
funding increase for the National Cancer Institute, and I 
support that.
    But when it comes to addressing the number one cause of 
death for Americans between the ages of 4 and 33 years old, 
this Administration is proposing an increase of four one-
hundredths of a percent. That is effectively a hard freeze on 
funding.
    When you dig into the details of the Bush Administration's 
proposal, you find that very real cuts and terminations are 
recommended for initiatives that address the most critical 
problems in highway safety. Under this budget, funding for 
drunken driving prevention has been decreased by 22 percent. 
Funding to boost seat belt use has been reduced by 14 percent, 
and funding for safety standards is reduced by 20 percent.
    Last year despite the fact that it was not requested by the 
Administration, the subcommittee earmarked $10 million for the 
Click It or Ticket campaign, a program that's designed to boost 
seat belt use. We did it for one reason only: Because data 
supplied by the National Highway Traffic Safety Administration 
indicated the program works in getting more people to buckle 
up. But the Bush Administration budget proposes that this 
effort be terminated in 2003.
    Last year, the Bush Administration submitted its 
performance plan and established a goal to boost seat belt use 
to 86 percent in 2001 and 87 percent in 2002. For 2001, they 
missed the goal by a huge margin, 13 percent.
    So today, we find that the Administration has just given 
up. They lowered their goal for 2002 to 78 percent. Rather than 
redoubling their efforts to save lives, they're writing those 
lives off and cutting their safety budget.
    These proposals, in my view, are unacceptable and 
irresponsible. It is my fervent hope that when it comes time 
for this subcommittee to mark up the 2003 transportation 
appropriations bill, we will have the resources to reject those 
cuts.
    We must move our States and local law enforcement 
authorities forward and get our nation back on track to further 
reduce death and destruction on our highways.
    Senator Campbell, if you have an opening statement.
    Senator Campbell. Madam Chairman, it is my understanding we 
are going to vote in about 20 minutes, is that correct?
    Senator Murray. Correct.
    Senator Campbell. With your permission, I will just submit 
my opening statement for the record and if we can get through 
it, I do have a couple of questions I would like to ask on 
truckers' hours of service and the new directive that will be 
coming through with more Mexican trucks coming north, and maybe 
a couple of questions on motorcycle safety too.
    Senator Murray. Very good.
    We will then turn to our witnesses this morning. We will 
begin with the Honorable Jeffrey M. Runge, M.D., Administrator, 
National Highway Traffic Safety Administration.

STATEMENT OF HON. JEFFREY W. RUNGE, M.D., 
            ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC 
            SAFETY ADMINISTRATION, DEPARTMENT OF 
            TRANSPORTATION

    Dr. Runge. Thank you, Madam Chairman. My oral comments will 
summarize written remarks, which are submitted for the record.
    Senator Murray. I would like to remind all of our witnesses 
to limit their oral statements to 5 minutes.
    Dr. Runge. Thank you. I will do my best.
    I am pleased to make my first appearance before your 
committee, Madam Chairman, on behalf of NHTSA. I welcome the 
opportunity to testify on traffic safety issues, which are of 
national importance, and on our fiscal year 2003 budget 
request. I am also honored to appear with my fellow witnesses, 
whom I know and hold in high regard.
    Before I begin, I want to express my appreciation for your 
support for the agency's programs in the past year and for the 
particular interest you have shown during my short time here at 
NHTSA. I look forward to continuing to work with you and your 
staff on the Committee.
    The top goal of Secretary Mineta and the Administration is 
transportation safety and security. NHTSA's focus is on keeping 
people safe on our nation's roads and highways.
    We use the resources we are given in programs and services 
that are results oriented. We strive to use only effective, 
cost-efficient countermeasures to address the safety needs of 
our citizens.


                          SAFETY PARTNERSHIPS


    We work in partnership with a broad array of safety 
professionals, including those organizations represented here 
today. We understand our pivotal role in working with the 
traffic safety community in States and local jurisdictions, the 
private sector, and with safety advocates. We also recognize 
that our influence extends internationally as we work to 
influence safety worldwide.
    As you said in your statement, Senator, the numbers speak 
for themselves, 41,821 dead on our highways in 2000; 16,600 
from alcohol impairment; and 9,200 died because they were not 
buckled into a seat belt or a child safety restraint.
    We know that to fulfill our duty to the American people we 
must bolster our current efforts with new approaches, 
especially in the areas of driver impairment, seat belt use, 
speeding, and other unsafe practices like distracted and 
arrogant driving.
    To assist in these efforts, we are requesting $430 million 
in fiscal year 2003, which is an increase of $6 million over 
the current budget. The budget will support a balanced approach 
to increase the safety of vehicles, as well as to tackle the 
human causes of crashes in this growing transportation sector.


               TRAFFIC SAFETY--A PERSONAL RESPONSIBILITY


    As a physician, I come to the table with decades of 
experience treating victims of crash injury. I came to NHTSA 
committed to ramp up our efforts to prevent crashes and to 
reduce death and injury when those crashes do occur.
    Although we will provide the science, the programs, and the 
regulations, highway traffic safety is everyone's 
responsibility. People in this country must take personal 
responsibility to drive sober and responsibly, and to buckle 
themselves and their children into safety restraints.
    Private corporations must take responsibility to make the 
safest possible vehicles and equipment and ensure that their 
products can be used safely.
    Our government partners are likewise committed to providing 
safe and efficient roadways on which to travel. This has a very 
successful legacy in keeping our citizens safe. In cooperation 
with our partners, our programs have had a long-term influence 
in reducing traffic crashes, deaths and injuries. But as you 
said, the easier gains have been made. We are seeing that the 
gains now are much harder to come by.


                    NATIONAL PUBLIC HEALTH EMERGENCY


    Despite consistent progress in the numbers since NHTSA's 
inception in the 1960s, the tragic fact remains that traffic 
crashes are the leading cause of death for Americans from four 
to 33 years of age.
    Every day 115 people are killed on our highways. Over 3 
million are injured annually. And we expect the numbers to be 
about the same in 2001 as they were in 2000.
    Unfortunately, in 2001, we saw the first increase in 
alcohol related deaths that we have seen in many years. And 
motorcyclist deaths are up significantly, as well.
    This is a national public health emergency. It is a disease 
that is both predictable and preventable, and it has a cure and 
a very effective vaccine. The most effective safety vaccine 
available to us is the safety belt and the child safety seat.


                         SEAT BELT USE INCREASE


    I am happy to tell you that seat belt use did increase six 
percentage points from 1999 to 2001, boosted by a high 
visibility enforcement campaign across the Southeast.
    The bad news is that, although this is the most effective 
tool we have against one of America's most urgent public health 
problems, we have an unbelievably difficult time getting people 
to use it.


                       PRIMARY BELT LAWS REQUIRED


    Belt use has been improving by a meager two percentage 
points each year. NHTSA will need to mount more aggressive, 
more effective programs. But, realistically, reaching 90 
percent belt use, or even getting the nation over 80 percent 
belt use, to join the rest of the developed world is not going 
to happen unless States enact and then enforce primary belt 
laws.
    The 28 percent of Americans who are not buckling up today 
are much more difficult to convert than those who have 
converted in previous years. We have the data on how to do it. 
It will require consistent laws and enforcement throughout the 
States.
    NHTSA can help with programs such as Click It or Ticket. 
But the States have to take responsibility for the laws they 
pass or that they fail to pass to safeguard their citizens.


                            IMPAIRED DRIVING


    Impaired drivers are a nationally recognized menace, and 
stopping them is one of my top priorities.
    Our program supports what our research shows works: DWI 
enforcement coupled with swift sure sanctions, strong laws for 
repeat offenders, .08 laws to lower the average BAC on the 
roads, administrative license revocation, and vehicle 
sanctions, as well as wide-spread public education, including 
designated drivers.
    We are running a five-State demonstration of strong 
enforcement, and we are witnessing improvements in alcohol 
related deaths compared to areas without that similar 
enforcement.


                    OTHER DANGEROUS DRIVING BEHAVIOR


    Our budget is designed to address other dangerous 
behaviors, including aggressive driving, speeding, and driver 
distraction. Our programs will focus on effective traffic law 
enforcement, demonstrations in automated enforcement and speed 
management, as well as major public education programs.


                    STRONG VEHICLE SAFETY COMPONENT


    We have a strong vehicle safety component planned as well. 
It includes vehicle crash worthiness and crash avoidance 
initiatives and continuing to advise consumers about the 
relative safety performance of new vehicles.
    A strong research program is the underpinning for all 
vehicular and behavioral safety programs, including our crash 
injury data systems used worldwide to guide decision making 
about everything from driver behavior programs to vehicle and 
road design.


                           COMPLIANCE TESTING


    The fiscal year 2003 request also provides resources for 
vehicle safety compliance testing for new defect investigations 
and recall efforts including full implementation of the many 
provisions of the TREAD Act.


                               CONCLUSION


    Madam Chairman, in closing, I want to repeat my thanks for 
your support. I will look forward to working with you and your 
committee in carrying out what we believe will be a strong 
performance-based program that will achieve our national safety 
goals. I would be pleased to answer your questions.


                           PREPARED STATEMENT


    Senator Murray. Thank you.
    [The statement follows:]

              Prepared Statement of Jeffrey W. Runge, M.D.

    Madam Chairman and members of the Committee: I welcome the 
opportunity to appear before you today to discuss the fiscal year 2003 
budget and programs of the National Highway Traffic Safety 
Administration (NHTSA). As the new Administrator for NHTSA, I am 
looking forward to working with you. The long-standing support of this 
Committee has allowed NHTSA to make significant advances in highway 
safety for the Nation. I am very pleased to appear with the other panel 
members to discuss significant highway safety issues.
    NHTSA's fiscal year 2003 budget request of $430 million supports 
the Administration's goals of providing a citizen centered, results 
oriented, and market based government. In concert with the Department 
of Transportation's priorities of safety and security, growing 
transportation system capacity, and fostering competition, NHTSA's 
budget supports programs directed at significantly improving the 
Nation's highway safety by reducing the number of highway-related 
fatalities and injuries and the resultant traffic-related health care 
and other economic costs. The agency's highway safety programs continue 
to place primary emphasis on developing, promoting, and implementing 
national educational, engineering, and enforcement programs aimed at 
reducing the number and severity of road collisions and mitigating the 
consequences of crashes.
    NHTSA's programs have demonstrated a long-standing positive 
influence on decreasing highway traffic-related injuries and their 
devastating economic impact, which amounts to over $150 billion 
annually. We are pleased to report that the Department has met both the 
highway fatality and injury targets established for fiscal year 2000. 
As a result of NHTSA's continuing program support, traffic fatalities 
decreased from 51,091 in 1980 to 41,821 in 2000. Non-occupant 
fatalities also continue to decline, and fatalities among children aged 
0 to 4 and 5 to 15 are steadily decreasing. The child passenger 
restraint use rate has also risen radically over the past few years, as 
child passenger fatalities continue to decline. From 1990 to 2000, the 
number of younger drivers (aged 15 to 24 years old) involved in fatal 
crashes declined 14 percent, and the percentage of intoxicated drivers 
in the 16 to 20 year old group who are involved in fatal crashes 
declined by 29 percent. In addition, passenger vehicle occupant 
fatalities and non-occupant fatalities both declined, 0.1 percent and 
4.6 percent, respectively, from 1999 to 2000.
    However, despite this impressive track record, recent statistics 
reveal motorcycle fatalities are up 15 percent from 1999; vehicle 
crashes continue to be the leading cause of death for persons aged 4 to 
33; and although seat belt use increased by 6 percent from 1999 to 
2001, it improved by only two percentage points over the last 2 years. 
In addition, alcohol-related fatalities increased from 38 percent in 
1999 to 40 percent in 2000. Obviously, much more needs to be done, and 
NHTSA is dedicated to meeting the challenges.

                           PROGRAM HIGHLIGHTS

Results Oriented Performance Measures
    NHTSA's fiscal year 2003 budget is both performance-based and 
results oriented. In order to assure that our programs are working, we 
need to have reasonable targets and reliable methods to measure our 
progress. To that end, one of the most significant changes in the way 
we conduct business is our recent development of improved and more 
realistic methods used in establishing and measuring the alcohol-
related fatality target and the seat belt use target.
Alcohol-related Fatality Target Revision
    The targets specified in the Agency's fiscal year 2001 and fiscal 
year 2002 performance plans were interpretations of a goal to reduce 
alcohol-related highway fatalities to 11,000 by 2005. The measure used 
to track progress toward those targets, percentage of highway 
fatalities that are alcohol related, does not present an accurate 
picture of progress. This is because, as overall fatalities decline--
due to increases in seat belt use and effects of other safety 
countermeasures--the percentages of alcohol-related fatalities could 
increase. NHTSA is currently analyzing data from previous years and 
developing a more realistic performance measure and target.

Seat Belt Use Target Revision

    Seat belt use in 2001 increased to 73 percent--an all-time high. 
Yet, this rate was well below the 86 percent target for 2001. That 
target was based on a stretch goal of 90 percent use by 2005. NHTSA 
determined that this performance target was also unrealistic and 
required revising. The agency has set a 2003 seat belt use target of 78 
percent. NHTSA reviewed the individual State seat belt use goals for 
2003 and the results of the analyses led the agency to determine that 
the appropriate target for 2003 is 78 percent. This goal is reasonable 
and challenging. Over the past several years the agency has been 
converting approximately 8.5 percent of the non-seat belt users, each 
year, to seat belt users. Continuing to convert this number each year 
becomes more difficult, as the set of ``hard core'' non-users becomes a 
higher proportion of all non-users.
    Current seat belt use saves 11,000 lives and prevents 2 million 
injuries every year. For each percentage point increase in seat belt 
use, 3 million more people buckle up, saving approximately 226 lives 
and preventing over 3,700 injuries each year. Achieving the 2003 target 
will result in 15 million more people buckling up, saving 1,130 more 
lives and preventing 18,500 additional injuries.
Citizen Centered Programs
    Americans expect the government to assure their safety on the 
highways. NHTSA is responding to the public's insistence on safer 
vehicle travel and is taking the lead in developing new and supporting 
proven program interventions. The fiscal year 2003 budget request 
includes a strong commitment to changing driver behavior, improving 
vehicle crashworthiness, and sustaining research and development 
activities to support the agency's behavioral and vehicular programs.
    The agency has provided the American public with strong behavioral 
programs centering on the highway transportation environment. These 
include impaired driving, occupant protection, and high visibility 
traffic law enforcement. Recent success in the Click It Or Ticket 
campaign demonstrates the efficacy of working with our State and local 
partners to achieve our priorities of increasing seat belt use and 
reducing impaired driving.
    Involvement of our partners in the State and local governments, 
safety organizations, law enforcement and judicial areas, and the 
private sector has proven to be the most valuable asset to NHTSA's 
program success. Throughout fiscal year 2003, we will continue to rely 
on their expertise and dedication in adapting and implementing 
innovative and proven strategies, as well as their continuing feedback 
on successful techniques that the agency can incorporate in future 
NHTSA programs. Emphasis will be placed on such programs as passing 
primary enforcement laws, increasing enforcement of current laws, and 
expanding public education on the benefits of child safety seat and 
seat belt use.
    The success of these partnerships is demonstrated through last 
year's new Internet-based child safety seat fitting station locator 
service. Using this on-line service, consumers may obtain local contact 
information for a child safety seat fitting station or certified child 
passenger safety technician in their area to ensure safety seats are 
installed and used correctly. As of December 31, 2001, the website 
locator had 3,464 child safety seat inspection sites listed, and there 
were a total of 22,381 certified technicians and 1,037 certified 
instructors. This year, NHTSA is partnering with Daimler Chrysler to 
expand and improve our services by adding a toll free number, allowing 
those without access to a computer to receive fitting station and 
technician information.
    In addition, the NHTSA Auto Safety Hotline will continue to educate 
the public about vital transportation safety issues and provide a 
mechanism by which consumers can report potential safety defects in 
motor vehicles and motor vehicle equipment. In fiscal year 2003, the 
Hotline will be upgraded; using advanced features that customers have 
come to expect from a hotline service.

NHTSA Programs Promote Safety and Security Priorities
            Safety
    We are conducting research on vehicles equipped with advanced 
occupant protection systems, child restraints, and vehicle tires; new 
technologies for field data collection; and modifying the existing 
electronic data collection system; improving National Automotive 
Sampling System data variables; and continuing to collect data to 
determine real world effectiveness of child safety seats in reducing 
injuries to children in motor vehicle crashes. Additional activities 
include expanding our compliance test program to incorporate proposed 
new standards and revisions to existing standards that become effective 
in fiscal year 2003 and beyond.
    Fiscal year 2003 will be the first year of implementation of the 
Child Restraint Ratings Program and the Dynamic Rollover Rating Program 
for passenger vehicles. Funding in fiscal year 2003 will be used to 
conduct tests for these two new programs and to develop and disseminate 
the ratings information to consumers. Other efforts to improve the safe 
transportation of children in vehicles will be supported through 
testing to address issues that arise following publication of the final 
rule on the upgrade to the child restraint standard, FMVSS No. 213. 
Following the issuance of final rules for new tire pressure monitoring 
systems, upgraded tire standards, and improved tire labeling for light 
vehicles, by fall of 2002, the agency will investigate the safety 
issues concerning retreaded tires on heavy trucks to reduce crashes 
involving tire failures in heavy vehicles.
    Real world crash statistics indicate that 42 percent of tow away 
frontal crashes are full frontal, and 56 percent are frontal-offset. 
Even after all cars and light trucks have frontal air bags, we estimate 
there still would be 8,000 deaths and 120,000 moderate to critical 
injuries in frontal crashes each year. This budget supports work that 
will continue toward the issuance of a rule to address occupant 
protection in frontal offset crashes. Other important crashworthiness 
safety standards work will include occupant protection in rear impacts, 
including improved seat strength; school bus and motor coach occupant 
protection; and upgraded side impact protection. Support also will be 
provided for improvements in crash avoidance standards, including 
upgrades to the braking and mirror standards for heavy trucks, and 
changes to the light vehicle head lighting standard to address the 
significant public concerns regarding glare. We will continue to 
conduct systematic assessments of all of our motor vehicle safety 
standards to ensure that they adequately address current safety 
problems and vehicle technology developments.
    The Final Rule for frontal crash protection, using advanced air bag 
technologies, necessitates future air bags to be designed to create 
less risk of serious air bag-induced injuries than current air bags, 
and provide improved frontal crash protection for all occupants. NHTSA 
is conducting cooperative research with industry in the development of 
further advanced air bag technologies. As part of the research on 
advanced air bags, NHTSA has completed a series of rigid barrier crash 
tests with belted 5th and 50th percentile dummies at 35 mph as well as 
unbelted 50th percentile dummies at 25 mph and 30 mph. The crash test 
results showed that some of the vehicles are able to meet the injury 
criteria established in the rule issued in May 2000.

            Security
    In support of the Department's national security priority, NHTSA's 
fiscal year 2003 budget includes reviewing and establishing Corporate 
Average Fuel Economy standards that will contribute towards the more 
efficient use of fuel necessary for the Nation's transportation needs, 
as well as decreasing America's dependence on foreign petroleum sources 
and supply disruptions. Analysis of manufacturers' capability to 
improve the fuel economy performance of their light duty vehicles; a 
review of automotive technologies that could achieve higher fuel 
efficiency; the environmental implications of higher CAFE standards; 
and the economic practicability of emerging technologies will provide 
the basis for developing the most cost effective policies to increase 
fuel economy and to reduce fuel consumption and costs per mile 
traveled.
    In addition, in response to the appalling tragedy of 9/11, our 
Emergency Medical Services (EMS) program will stress the integration of 
routine EMS response capacity with terrorism readiness resources. The 
program will emphasize system upgrades that will serve both routine and 
emergency incidents and mass casualty needs, such as improving 
surveillance and data collection and strengthening EMS systems through 
collaboration with public health officials.

Market Based Programs Fostering Competition
    Manufacturers continue to look to NHTSA standards and vehicle 
safety consumer information as a challenge in creativity to upgrade 
their products to exceed the Federal standards. These challenges have 
provided bold and innovative achievements in safer vehicle designs and 
have helped to stimulate a more competitive market place. In addition 
to the NCAP frontal and side impact ratings program, and the new Child 
Restraint and the Dynamic Rollover Ratings programs, this budget also 
provides for vital work in the areas of safety standards compliance, 
and of equipment testing, with emphasis on child restraint systems. We 
are also conducting research in tire debeading and tire strength 
requirements; possibilities for using advanced state-of-the-art 
technologies to greatly improve braking in heavy vehicles; upgrading 
safety standards for frontal crash, side impact, and roof crush 
protection, fuel system integrity, and vehicle compatibility. NHTSA 
research provides greater incentives for manufacturers to engage in 
their own research to improve their products. Our program activities 
all add to strengthening the American economy and encouraging 
competition for product safety.

                         PROGRAM BUDGET DETAILS

Safety Performance Standards Programs
    Funding of $10.4 million is requested to support the Safety 
Performance Standards programs that include Safety Standards Support, 
the New Car Assessment Program (NCAP), and the Fuel Economy and Theft 
programs.

            Safety Standards Support
    The budget request of $2 million will support testing and 
analytical work for issues that arise on the final rule for the child 
restraint standard upgrade; occupant protection in rear impacts, 
including seat strength requirements; improving offset frontal crash 
protection; upgrading safety standards for the next generation of 
occupant protection systems for school buses; examining standards 
requirements for potential application to motor coaches; and upgrading 
side impact safety standards to provide better occupant head 
protection. Data collection for adapted vehicle safety and for non-
crash vehicle related fatalities also would be supported. Crash 
avoidance rulemaking activities are planned for new requirements for 
retread tires and tire pressure monitoring systems on commercial 
vehicles to upgrade the heavy truck braking standard to accommodate 
electronic control braking systems; to upgrade the heavy truck mirror 
standard to accommodate cross view mirrors; to upgrade the light 
vehicle lighting standard to address issues related to night time 
glare; and upgrade the motorcycle standard to improve motorcycle 
braking performance. Cost weight and lead time studies for rear impact 
protection and bus emergency exits and window retention/release 
rulemakings also will be supported. Consumer information work will 
consist of developing new campaigns and materials on new and emerging 
vehicle safety issues, addressing safe towing practices, and continuing 
and expanding the Tire Safety Information campaign. Work will continue 
on the technology assessments needed to implement regulatory review for 
standards that have not had significant updates for many years.

            New Car Assessment Program
    Funding of $7.3 million for the New Car Assessment program (NCAP) 
will support frontal and side impact testing. The testing will 
represent about 80 percent of new vehicles when combined with carry-
over results from previous years on vehicles whose designs have not 
changed. The tests will be split almost evenly between frontal and side 
tests. In fiscal year 2003, tripped rollover resistance using the 
static stability factor will be measured for approximately 100 
vehicles. These tests will provide results for the same percentage.of 
the fleet as for the frontal and side tests. The NCAP program also will 
support approximately 100 tests to measure braking performance and 
numerous tests to evaluate headlighting performance for planned NCAP 
crash avoidance ratings. NCAP funding also supports Consumer 
Information program activities to develop and deliver NCAP crash test 
results and safety information through brochures, campaigns, web-site 
enhancements and marketing initiatives. Increased program funding will 
allow the agency to meet the requirements of the TREAD Act.
    New NCAP information for the Child Restraint Ratings and the 
Dynamic Rollover Rating programs will be developed and distributed to 
the public. NCAP funds also will be used to conduct consumer research 
activities to determine the type of information most helpful to 
consumers and the best ways to present it; develop information for new 
campaigns and materials on high interest issues, such as tire safety, 
braking performance, and other emerging issues; expand the methods for 
disseminating vehicle safety consumer information to reach more people; 
and develop diversity initiatives and materials to better reach 
underserved populations.

            Fuel Economy Program
    The requested amount for the Corporate Average Fuel Economy (CAFE) 
program is $1 million. To allow NHTSA to properly resume its 
responsibility for evaluating and setting CAFE standards, following the 
lifting of the prohibition in the fiscal year 2002 DOT Appropriations 
Act, there are many actions that must be taken in fiscal year 2003. 
Responses to a Request for Comment published in February 2002 will 
assist the agency in determining what Model Years 2005-2010 light truck 
CAFE standards are feasible and provide feedback on the findings and 
recommendations of the National Academy of Sciences study that was 
released on January 28, 2002. The agency must publish a final rule by 
April 1, 2003. Fiscal year 2003 funds will be needed to complete work 
on several studies, including a manufacturers' capability study, a 
technology review, an environmental assessment, an economic analysis, 
and an update and expansion of the CAFE database. These studies are 
needed in order to ensure that any changes in fuel economy standards or 
the CAFE program are based on sound science and will improve fuel 
economy without compromising safety or costing American jobs.

            Theft Prevention Program
    Funding of $51 thousand is needed to support data analysis 
activities. In particular, extensive contract support is required to 
carry out the analysis of insurer reports required by law. The 49 
U.S.C. 33112(h) requires that the insurance information obtained by the 
Secretary of Transportation from insurance and rental/leasing companies 
shall be periodically compiled and published in a form that will be 
helpful to the public, including Federal, State, and local police and 
Congress. The report focuses on an assessment of information on theft 
and recovery of motor vehicles (including passenger cars, light trucks, 
and multi-purpose vehicles), comprehensive insurance coverage, and 
actions taken by insurers to reduce motor vehicle thefts.
Safety Assurance Programs
    The fiscal year 2003 budget requests $15.8 million for Safety 
Assurance, which includes the Vehicle Safety Compliance, the Defects 
Investigation, and the Odometer Fraud programs.

            Vehicle Safety Compliance Program
    In fiscal year 2003, the agency is requesting $7.5 million for the 
Vehicle Safety Compliance program. We will conduct full-scale crash 
testing of new motor vehicles for verifying compliance with, among 
other things, the safety standards for frontal occupant crash 
protection (20 tests); dynamic side impact protection (20 tests); upper 
interior head protection (15 tests); dynamic rear and side fuel system 
integrity (20 tests); and side impact pole tests (4 tests) to assess 
performance of new technology for head protection introduced in new 
vehicles. NHTSA also will continue its equipment-testing program, with 
emphasis on child restraint systems. In addition, the agency will 
expand its compliance test program to incorporate proposed new 
standards and revisions to existing standards that become effective 
during fiscal year 2003 and beyond.

            Safety Defects Investigation Program
    The Safety Defects Investigation Program identifies motor vehicles 
and items of motor vehicle equipment that contain safety-related 
defects and ensures that they are either repaired or removed from the 
Nation's highways. In calendar year 2000, about 14 percent of the 
recalls for safety-related defects (representing over 54 percent of the 
vehicles recalled) were influenced by NHTSA investigations. New 
initiatives under the Transportation Recall Enhancement, 
Accountability, and Documentation (TREAD) Act include issuing an 
``early warning'' regulation requiring manufacturers to provide 
extensive information about possible safety defects. The fiscal year 
2003 request for the program is $8.1 million. In addition to supporting 
ongoing investigations, these funds will allow NHTSA to finalize 
acquisition and implementation of a data warehouse for the Office of 
Defects Investigation (ODI). This data warehouse will accommodate the 
additional data to be submitted under the TREAD Act and will provide 
ODI investigators with improved analytical capabilities, allowing the 
agency to proactively identify potential safety problems in a timely 
manner. ODI will also continue to address petitions requesting 
investigations into alleged safety problems; monitor recalls to assure 
that the scope of the vehicles included and the remedy are adequate; 
continue its outreach programs; and expand the public's access to ODI 
files through the Internet.

            Odometer Fraud Program
    Odometer tampering continues to be a serious crime and a consumer 
fraud issue. In addition to conducting investigations of large-scale 
interstate odometer fraud cases for criminal prosecution by the U.S. 
Department of Justice, the Odometer Fraud staff works very closely with 
State enforcement agencies, supporting their enforcement programs. The 
fiscal year 2003 funding request is $150 thousand. In fiscal year 2003, 
the agency plans to enter into cooperative agreements with four States 
to train investigators and support State odometer fraud programs.
Highway Safety Programs
    NTHSA requests $41.2 million for Highway Safety Programs. Funding 
will continue to deliver an effective behavioral program to reduce 
traffic deaths and injuries and achieve the agency's goals in reducing 
impaired driving and increasing occupant protection.

            Occupant Protection
    The fiscal year 2003 budget proposal of $11.2 million focuses on 
three major areas: seat belts, child passenger safety (including 
booster seats), and air bags, while continuing efforts to reach the 
national goals of 78 percent seat belt use by 2003 and reducing child 
passenger fatalities (0-4 years) by 25 percent by 2005. Strategies to 
reach the goals include expanded partnerships; public education; highly 
visible enforcement; passage of effective laws; and implementing new 
technologies. Activities include conducting semi-annual Operation 
America Buckles Up Children mobilizations; documenting best practices 
learned from Section 403 demonstration programs and Sections 157 and 
405 grant programs; and expanding partnerships with diverse 
organizations and other high risk and hard to reach populations. NHTSA 
will also expand its outreach to minority audiences with national media 
campaigns through the Advertising Council, minority media contractors, 
and the utilization of credible spokespersons. The Spanish language 
campaign companion low English proficiency materials will be expanded. 
Child Passenger Safety technician training will be provided to Spanish 
speaking organizations, and additional training for Urban African 
Americans will be conducted. NHTSA plans a community demonstration 
initiative to increase the seat belt use among sport utility vehicle 
occupants due to the high rollover rate seen in these vehicles. To 
improve child passenger safety, the agency will expand and improve a 
web application designed to provide consumers with information on the 
selection, use, and installation of child restraints in both English 
and Spanish; conduct a Child Passenger Safety Week; develop initiatives 
to increase booster seat use for children between 40 to 80 pounds; and 
expand the network of public and private sector child safety fitting 
stations across the country.
    In addition, air bag safety activities include educating used car 
buyers on air bag safety issues; expanding public information and 
education to promote awareness of existing air bag issues and emerging 
air bag technologies; and re-educating the public on dangers associated 
with the interaction between air bags and front seat occupants, 
including individuals of short stature, pregnant women, infants, and 
small children.

            Impaired Driving Program
    NHTSA set a new goal for impaired driving to reduce the rate of 
alcohol-related highway fatalities per 100 million vehicle miles 
traveled to 0.53 by 2003. This remains an ambitious goal, since the 
number of impaired driving fatalities rose in 2000 for the first time 
since 1995. The NHTSA program, at $9.6 million, will continue to focus 
on a four-prong approach: prevention and education; enforcement and 
adjudication; legislation; and outreach through partnerships. In 
addition to the current programs, NHTSA will complete highly publicized 
enforcement demonstrations in five States and promote the best 
practices that these evaluations produced. We will continue with two 
additional demonstration States and engage partners in activities to 
support enforcement and prevention efforts. We will also demonstrate 
the driver history information records systems data model in several 
States; continue training for law enforcement, prosecutors, and judges 
on issues related to detecting and sentencing impaired drivers; support 
the development of new materials under the You Drink and Drive. You 
Lose. Campaign; and prioritize and implement recommendations from the 
Criminal Justice Summit. Physical screening for problem drinkers will 
be expanded.

            Emergency Medical Services
    The fiscal year 2003 budget requests $2.2 million for emergency 
medical services (EMS) to fulfill NHTSA's leadership and system 
development roles. The fiscal year 2003 EMS program will stress the 
integration of routine EMS response capacity with terrorism readiness 
resources. The program will stress system upgrades that will serve both 
routine and emergency incidents and mass casualty needs, such as 
improving surveillance and data collection and strengthening EMS 
systems through collaboration with public health offices. During fiscal 
year 2003, the EMS program will maintain focus on the strategic plan 
laid out in the EMS Agenda for the Future, creating new tools and 
incentives for mobilizing emergency medical professionals to conduct 
community injury prevention activities, and developing new methods for 
assessing the community value of EMS systems. The Education Agenda is a 
comprehensive plan for building an efficient and effective system for 
educating new emergency medical technicians.
    The terrorist attacks of September 11 highlight the need for better 
communications systems for emergency medical services. Wireless E9-1-1 
systems, in particular, must be improved. NHTSA will disseminate 
technical assistance to support nationwide implementation of wireless 
E9-1-1; develop a National Model Scope of Practice for EMS providers; 
and market EMS programs, including Bystander Care, to State and local 
affiliates of national organizations.

            Drugs, Driving and Youth
    The major objective of the Drugs, Driving, and Youth Program is to 
reduce drug-impaired driving among youth. NHTSA continues to support 
the recommendations identified in the Initiative on Drugs, Driving and 
Youth, which addressed strengthening State laws; intensifying State and 
local enforcement programs; implementing youth-focused education 
efforts; and providing grants to States to initiate programs and laws 
focusing on impaired youth driving. In fiscal year 2003, funding in the 
amount of $1.2 million is requested. In addition to the current 
impaired driving programs, NHTSA will expand State enforcement 
demonstrations in two additional States, Indiana and Michigan. The 
agency will develop and pilot test new comprehensive strategies, 
including speeding, zero tolerance, and seat belt violations, for 
reaching the increasing youth population. NHTSA will continue work with 
the college community to reduce underage drinking and increase zero 
tolerance enforcement. In addition, NHTSA will focus on developing 
additional resources for prosecuting and adjudicating the repeat and 
high alcohol blood concentration (BAC) offender, including treatment 
and sanctioning alternatives. Action grants will be awarded to national 
organizations, advocacy groups, and criminal justice partners to 
support highly visible enforcement and prevention activities. NHTSA 
will continue the national impaired driving public education campaign 
to keep the issue in the forefront of public attention. The agency is 
continuing to work with States and other partners to implement State 
alcohol forums to examine State data and develop action plans and 
coalitions for reducing alcohol-related deaths and injuries.

            Pedestrian and Bicycle Safety
    The budget requests $1.3 million to support comprehensive 
pedestrian, bicycle, and school bus safety programs. The programs focus 
on developing and implementing strategies to: (1) prevent pedestrian, 
bicycle, and school bus traffic-related fatalities and injuries from 
occurring; and (2) prevent and reduce injuries resulting from these 
incidents. New fiscal year 2003 initiatives include: pilot testing and 
completing the school bus driver training program; working with the 
Head Start program to develop age-appropriate pedestrian safety 
training programs for children and their care givers; encouraging the 
adoption of innovative pedestrian enforcement strategies by providing 
small demonstration grants to communities; and conducting case studies 
to determine the effectiveness of the Texas mandate for bicycle 
education in elementary schools.

            Motorcycle Safety
    The budget requests $645 thousand to support a comprehensive 
motorcycle safety program. NHTSA will continue to work with a wide 
array of partners (e.g., motorcycling organizations, manufacturers, 
health and medical professionals, and engineers) to support 
implementation of selected recommendations in the National Agenda for 
Motorcycle Safety. The agency will continue to support initiatives 
begun in fiscal year 2002, including identification of best practices 
in motorcycle training and licensing and identification of potential 
countermeasures to reverse the increases in fatalities among older 
motorcyclists. NHTSA will continue to support State efforts to enact 
motorcycle helmet laws; to respond to repeal efforts by distributing 
technical assistance materials upon request; to support innovative 
strategies to prevent impaired motorcycle crashes; and to increase 
motorist awareness of motorcyclists. Efforts will be made to work with 
national organizations, especially public health groups, to educate 
their members about motorcycle safety issues and provide workshops and 
exhibits at national meetings.

            Traffic Law Enforcement
    The Traffic Law Enforcement (TLE) request of $2.1 million supports 
efforts to increase seat belt use and to reduce impaired driving, 
speeding, aggressive driving, and other unsafe driving acts and 
continue its efforts to promote seat belt and child safety seat use as 
a primary responsibility of our Nation's law enforcement agencies. New 
initiatives will include the development of model speed enforcement 
guidelines based on lessons learned from NHTSA and FHWA sponsored speed 
management demonstration projects; expansion of the community 
demonstration projects with both the National Organization of Black Law 
Enforcement Executives (NOBLE) and the Hispanic American Police Command 
Officers Association to promote traffic safety in diverse communities; 
expansion of training designed to reemphasize a broad based traffic 
enforcement program; expansion of training designed to reemphasize a 
broad based traffic enforcement program; expansion of training for law 
enforcement, prosecutors, and judges to heighten emphasis on aggressive 
driving; creation of a model process to help law enforcement agencies 
improve their traffic safety planning process; sponsorship of a summit 
to identify the gaps in the criminal justice system and to make 
recommendations for corrections; and implementation of a traffic 
enforcement technology project to demonstrate and measure the impact of 
effective and efficient traditional and automated enforcement 
technologies. NHTSA will also continue to collaborate with Federal, 
State, and local partners to address the issue of racial profiling.

            Highway Safety Research
    The request of $7.1 million for highway safety behavioral research 
supports efforts to determine the causes of crashes; identify target 
populations; measure perceptions and awareness levels; develop and test 
countermeasures; and evaluate the effectiveness of programs to reduce 
traffic deaths, injuries, and associated monetary costs. New research 
and evaluation initiatives in fiscal year 2003 will develop and test 
strategies to increase correct child restraint seat use; examine 
various technological approaches to increase seat belt use; analyze 
belt use patterns from direct recording data; determine the 
effectiveness of saturation patrols to reduce impaired driving; 
initiate a study, in cooperation with the European Union, of the 
incidence of driving under the influence of drugs other than alcohol; 
evaluate the effectiveness of assessment and rehabilitation programs 
for older drivers; initiate a field test of a new system to reduce 
illegal passing of stopped school buses; conduct a national survey of 
pedestrian and bicyclist behavior; and examine trends in speed related 
crashes.

            Emerging Issues
    NHTSA investigates new traffic risks as they emerge, such as driver 
fatigue, increased use of cellular phones and other electronic devices 
while driving, and the growing number of older drivers. The fiscal year 
2003 request of $1.2 million funds activities including creating public 
education and information programs aimed at reducing crashes, injuries, 
and fatalities resulting from these new safety risks. NHTSA will 
provide materials to law enforcement officers and the drivers they stop 
who are drowsy (rather than impaired by drugs or alcohol); broaden the 
social marketing effort previously targeted to older drivers, their 
families, and health care providers to include State driver licensing 
agencies and the law enforcement community; and use new research 
findings to further refine public education directed toward users of 
cellular phones and other telematics and additional distractions to 
inform drivers about risks to themselves and others.

            Traffic Records and Driver Licensing
    The budget request includes $2.5 million for the Traffic Records 
and Driver Licensing program to support the agency's increased emphasis 
on the availability and use of traffic records. The fiscal year 2003 
program will continue its efforts to improve the timeliness, accuracy, 
and completeness of State traffic records systems. Driver licensing and 
education focuses on implementation of Graduated Driver Licensing (GDL) 
Systems. Funding will support State and local acquisition and analysis 
of traffic safety data that is necessary to effectively manage traffic 
safety activities such as alcohol, safety belt, and GDL programs. These 
programs have been shown to be an effective means to reduce the 
fatality and injury crash involvement of young novice drivers, with a 9 
percent reduction in Florida, a 26 percent reduction in North Carolina, 
and a 27 percent reduction in Michigan.

            National Driver Register (NDR)
    The National Driver Register assists State motor vehicle 
administrators in communicating with other States to identify problem 
drivers. The total number of inquiries has increased 69.9 percent from 
1993 to 2000. More importantly, during the same time period, the number 
of the more expensive interactive (real time) inquiries has increased 
321 percent (8.5 million to 35.8 million). The fiscal year 2003 program 
is requesting $1.1 million. NHTSA will continue to strive to meet its 
customer service goal of: (1) an average response time of four seconds, 
with all inquiries responded to within seven seconds; and (2) to be 
available for operation 99 percent of published operational hours. The 
Motor Carrier Safety Improvement Act of 1999 requires the States to 
make NDR inquiries for all license issuances. Currently, States are 
required to make inquiries for all non-minimum age license applicants 
and encouraged to check renewals. NHTSA estimates that the number of 
inquiries could increase 20 to 50 percent. This requirement will have a 
significant impact on operating costs.
Research and Analysis Programs
    The fiscal year 2003 Research and Analysis request, in the amount 
of $56 million, consists of support for biomechanics, crashworthiness, 
crash avoidance, driver/vehicle performance, and heavy vehicle 
research. The funding requested also supports pneumatic tire research 
required by the TREAD Act. In addition, the request includes the 
National Center for Statistics and Analysis, which provides vital data 
on traffic crashes to the agency, the Department, State and local 
governments, and the private sector.

            National Transportation Biomechanics Research Center 
                    (NTBRC)
    The budget request of $14 million represents a continuation of the 
fiscal year 2002 level, which supports the four major efforts pursued 
by the NTBRC. Biomechanics research is the cornerstone upon which many 
of the agency's performance-based occupant safety initiatives are and 
will be based. NHTSA will continue to fund seven Crash Injury Research 
and Engineering Network (CIREN) centers, as well as a variety of impact 
injury research, human simulation and analysis, crash test dummy 
component development, and biomechanics of air bag injuries research 
efforts. The agency is continuing its research program to understand 
the special crash protection needs of the elderly.

            Crashworthiness Research
    The budget requests $9 million for the crashworthiness research 
program. This funding will assist the agency in enhancing vehicle 
occupant protection by providing improvements in vehicle structural and 
interior compartment design, in combination with improvements in 
occupant restraint systems. Achieving these improvements requires 
research in analysis of real world crash experience; development of 
test procedures that reproduce the crash environment; evaluation of 
injury likelihood from crash test measurements; development and 
evaluation of effective vehicle countermeasures; and estimates of 
potential safety benefits. To the extent possible, the program also 
fosters, through research, international harmonization of future 
standards in the areas of pedestrian, frontal offset, side impact, and 
vehicle compatibility.
    The fiscal year 2003 research program will continue research to 
support upgrading safety standards for frontal crash protection, side 
impact protection, roof crush protection, ejection prevention, fuel 
system integrity, and child safety. The activities include the 
development of test devices and test procedures suitable for compliance 
testing. The agency will continue to conduct research to address the 
issue of vehicle compatibility by analyzing crash data and fleet 
characteristics to define the safety problem and to develop appropriate 
test procedures for evaluating aggressiveness of vehicles. The research 
program also includes development of suitable countermeasures to 
address safety problems, and evaluation of the effectiveness of 
countermeasures developed. The side impact research will continue to 
include full vehicle crash testing to support the short and long-term 
rulemaking activities; analysis of the current and future U.S. crash 
environment; and testing of vehicles to assess potential for 
harmonization and for generating new consumer information. The program 
will be expanded to include research on advanced restraint systems, 
such as adaptive air bags and inflatable belt systems; pre-crash radar 
and other sensing technologies; and automatically adjusting foot pedal 
controls to suit various size occupants.

            Crash Avoidance
    Funding of $6.9 million is requested to support both driver/vehicle 
performance and driver behavior programs. A primary emphasis of the 
program continues to include understanding driver workload and reducing 
driver distraction from in-vehicle devices. NHTSA research will 
continue its driver distraction program to support four key objectives: 
(1) understanding the dimensions of the safety problem; (2) measuring 
the impact of different distractions on the driving task; (3) 
identifying equipment interface approaches that minimize driver 
attention demands; and (4) developing effective social behavioral 
change programs. A major research initiative on adaptive driver 
interface to minimize distraction potential and driver workload 
management is planned. Research will focus on quantifying the safety 
impact of distraction through unobtrusive observations of distracting 
driver behaviors on the road; assessing voice interfaces as a possible 
solution when technologies distract drivers from their primary task of 
driving; and working with industry to develop requirements for 
integrated driver support systems to automatically prevent drivers from 
being unsafely distracted. Research will support behavioral change 
programs by identifying factors affecting drivers' willingness to 
engage in distracting tasks and by conducting surveys to determine 
individual differences in how distracting tasks impact driver 
performance. Some of this research will be conducted using the National 
Advanced Driving Simulator (NADS); addressing development and 
evaluation of new Crash Avoidance technologies and driver behavior, 
performance and other research issues in the future. Among these is the 
analysis of the complex driver-vehicle-environment interactions that 
are a contributing cause of more than three-quarters of all vehicle 
crashes. Furthermore, the development of standardized NADS test 
procedures and scenarios will ensure comparability of data collection 
across the range of studies planned and allow the development of a 
comprehensive driver data resource that can support the development of 
models to help predict driver behavior and performance under a variety 
of conditions. Two additional research programs will be initiated. 
These include the effects of age-related impairments on driver behavior 
and performance and the effects of drug use (prescription and non-
prescription) on driver.

            Pneumatic Tire Research
    The TREAD Act requires that the agency conduct rulemaking to revise 
and update the existing tire standards, Federal Motor Vehicle Safety 
Standards Nos. 109 and 119. The Act also requires NHTSA to complete 
rulemaking to establish a regulation to require a pressure warning 
system in new motor vehicles to indicate when a tire is significantly 
under inflated. In fiscal year 2001, NHTSA initiated a tire pressure 
survey; an assessment of pressure warning systems in light vehicles; 
and research into such crash prevention aspects of tire performance as 
high speed capability, endurance capability, and tire distortion from 
normal road and maneuvering conditions. This research provided a solid 
foundation for the required regulatory actions program for upgrading 
the standard, conducting a tire pressure survey, and conducting 
research on several types of pressure warning systems. It also provided 
a basis for additional efforts to improve the safety performance of 
tires. Research was also initiated to study tire debeading and tire 
strength requirements. In fiscal year 2003, $613 thousand is requested 
to continue pneumatic tire research in these and other areas, such as 
adhesion performance of internal components of tires, accelerated aging 
of tires, and testing tires under aged conditions.

            Heavy Vehicles
    Funding of $2.2 million is requested for NHTSA's efforts under the 
Department's initiative to reduce fatalities in heavy vehicle-related 
crashes by 50 percent by the start of the year 2010. The major focus of 
NHTSA's heavy truck program will continue to be improving braking 
performance. Decreases in stopping distances from highway speeds of up 
to 30 percent are believed to be possible by using disc brakes, much 
more powerful front axle brakes, and electronic control of brakes. 
Development of pre-crash data recorders will help to better define the 
causes of heavy vehicle crashes. The agency is evaluating the 
feasibility of using aerodynamics, similar to devices used by NASCAR 
race cars. We also are investigating adaptive suspension systems, which 
could be used to counteract incipient rollover; and stability 
enhancement systems that can be made a part of electronically 
controlled braking systems. In addition, research on improved side and 
rearward visibility and the elimination of blind spots will continue, 
as will research into improved truck occupant protection 
countermeasures. The agency is researching the possibility of future 
replacement of mirrors in heavy trucks and buses with video systems. 
This could result in eliminating blind spots, providing vastly improved 
vision at night, and reducing the wind resistance of heavy vehicles, 
resulting in greater fuel economy. Beginning in fiscal year 2003, the 
agency will initiate a long-term research program to study the human 
factors associated with these closed circuit video systems.

            Intelligent Vehicle Initiative (IVI)
    The Intelligent Vehicle Initiative (IVI) is focused on improving 
safety through the use of advanced intelligent technologies for 
collision avoidance purposes. The aim of this departmental research 
program is to develop a better understanding of why crashes occur and 
to determine how advanced technologies can be utilized to reduce the 
number of crashes and mitigate injuries when crashes do occur. Design 
improvements are accomplished by ensuring that the introduction of new 
in-vehicle systems does not degrade safety and by facilitating the 
development, deployment, and evaluation of effective driver warning 
collision avoidance systems. In fiscal year 2003, NHTSA accomplishments 
will include: (1) completion of the Automotive Collision Avoidance 
System Field Operational Test; (2) initiation of the data collection 
phase of the Road Departure Crash Warning System Field Operational 
Test; (3) completion of the majority of work on the Collision Avoidance 
Metrics Partnership project to develop fundamental pre-competitive 
research on crash avoidance technology, human factors, and creation of 
safety-focused map data bases; (4) initiation of a Field Operational 
Test of a heavy vehicle, driver drowsiness alerting system; (5) 
continuation of the development of realizable vehicle-based 
countermeasures for collisions that occur at intersections; and (6) 
continuation of efforts to find solutions to the problem of distraction 
from in-vehicle systems. Funding in the amount of $22 million is 
included in the Federal Highway Administration's (FHWA) budget. This 
amount is for the total IVI research program. A portion of this amount 
will be allocated to NHTSA for the light vehicle research component of 
the IVI program.

            National Advanced Driving Simulator (NADS)
    The National Advanced Driving Simulator installation, testing, and 
acceptance at the University of Iowa have been completed. NADS became 
operational in June 2001, thereby completing Phase II of the TRW 
development contract. No funding is requested for the NADS development 
in fiscal year 2003. However, funding has been requested under the 
Crash Avoidance Program for NADS-based research, which includes support 
for both ITS and human factors safety-related programs. Currently, NADS 
research is underway to investigate how drivers react to sudden tire 
failures.

            National Center for Statistics and Analysis (NCSA)
    The budget request for NCSA is $22.3 million. Funding provides for 
collection and analyses of data on traffic crashes and their outcomes. 
These activities are vital to the traffic safety programs of NHTSA, 
FHWA, FMCSA, and other Departmental programs, State and local 
governments, as well as vehicle manufacturers, insurers, and highway 
safety public interest groups.
    NCSA operates the Fatality Analysis Reporting System (FARS). This 
data collection system provides a census of all fatal highway crashes 
in the United States. It is an essential data source for its customers 
(internal agency and departmental modes and offices, other Federal 
agencies, States, research organizations, and interest groups). These 
data are analyzed and disseminated for widespread use. Activities will 
include: collecting and coding the data from all 50 States, Washington, 
DC, and Puerto Rico; creating the electronic data files, consisting of 
about 41,500 crashes; and creating and delivering FARS system-wide 
training to all analysts. New initiatives include geographical coding 
of all FARS cases to provide locational analyses capabilities; 
improving customer service through FARS website enhancements; and 
linking the FARS data base with other national data bases.
    Additionally, in-depth information on traffic crashes is obtained 
through the National Automotive Sampling System's (NASS) 
Crashworthiness Data System (CDS). A network of over 60 trained 
automotive crash investigators conduct approximately 4,000 detailed 
crash investigations in 24 locations throughout the country. Nationally 
representative data on crashes occurring in the United States is 
vitally important to the agency and to other users. NASS data are used 
to assess the tendency and magnitude of the crashes in this country, 
and the NASS Crashworthiness Data System provides more in-depth and 
descriptive data of occupants and vehicles in real world crashes. The 
fiscal year 2003 budget request is $10.57 million. New initiatives for 
fiscal year 2003 include improved access of data files for on-line data 
retrieval and analysis; improved crash severity indicators used on 
regulatory initiatives; conducting investigations on vehicles equipped 
with advanced occupant protection system devices, child restraints, and 
vehicle tires; new technologies for field data collection; improving 
current NASS data variables; and continuing to collect data to 
determine real world effectiveness of child safety seats in reducing 
injuries to children in motor vehicle crashes, in support of the TREAD 
Act.
    The Special Crash Investigation (SCI) program, requesting $1.7 
million for fiscal year 2003, identifies and documents the effects of 
new technologies in a timely manner so that the impact on motor vehicle 
crashes can be assessed quickly. SCI investigation is the only method 
to document the crash circumstances, identify the injury mechanisms, 
evaluate safety countermeasure effectiveness, and provide an early 
detection mechanism for alleged or potential vehicle defects. In fiscal 
year 2003, SCI will investigate over 200 crashes, including those 
involving advanced air bag systems, side air bags, and children in 
LATCH safety seats. The latter will allow NHTSA to evaluate the 
effectiveness of these emerging occupant-protection systems in real-
world crashes.
    The Data Analysis Program, requesting $2 million, provides critical 
analytical support to the various agency program offices to accomplish 
their missions, such as the development of crashworthiness and crash 
avoidance rulemaking, identification of target populations, and 
monitoring and reporting of traffic safety trends. New initiatives for 
fiscal year 2003 include: reviewing new technology to upgrade, as 
appropriate, the current customer service response and tracking 
systems; improving timeliness of responding to customers' requests for 
the latest traffic safety crash data and information through 
technological and process improvement activities; reviewing and 
updating, when appropriate, of existing periodic reports; and 
conducting analyses and providing reports in support of agency 
programs.
    The State Data Program is also a part of the NCSA. State crash data 
provide information for analyses and data collection programs that 
support NHTSA's mission. Program activities assist analysts and States 
in their efforts to understand how to improve the quality and utility 
of their crash data files. In fiscal year 2003, the program is 
requesting $2.5 million in funding. A major activity will be to support 
implementation by all States of a uniform guideline for State crash 
data. NHTSA promotes the linkage and use of linked crash and injury 
State data through a collaborative funding program for States. When 
merged, the linked data have extraordinary value for highway safety at 
the national level. In the process, the linked data will be 
standardized, and quality measures will be developed. Technical 
assistance, sponsoring research and meetings, demonstrating linked data 
base usefulness, and awarding grants to additional States as they 
qualify with the necessary crash and medical outcome data files will 
continue to be priority activities.

                     HIGHWAY TRAFFIC SAFETY GRANTS

    Through our performance-based grant program, NHTSA has assisted all 
States in identifying their unique highway safety issues, developing 
strategies, and implementing effective programs. NHTSA's State grant 
programs support key Departmental initiatives, including goals for 
increasing seat belt use nationwide and reducing alcohol-involved 
fatalities. Each State has a critical role to play in the broad-based 
regional and National strategic plans developed to meet the National 
goals. The requested $225 million in State grant funds for fiscal year 
2003 is critical to meeting the departmental highway safety goals. In 
view of the high economic toll caused by traffic crashes, over $150 
billion annually, our budget request is a small investment in State 
highway safety support.
    The Section 402 State and Community Formula Grant Program request 
for fiscal year 2003 is $165 million. It provides for a coordinated 
national highway safety program in every State, the District of 
Columbia, Puerto Rico, the Trust Territories, and the Indian Nations 
for the purpose of reducing highway crashes, deaths, and injuries. In 
fiscal year 2003, all States and territories will be continuing the 
performance-based management process. Section 402 formula grants 
support programs, developed and managed by the States, to address their 
highway safety goals, performance measures, and strategic plans.
    The fiscal year 2003 Section 402 formula request will support 
national priority programs, such as encouraging proper use of occupant 
protection devices; reducing alcohol and drug-impaired driving; 
reducing motorcycle crashes; improving police traffic services; 
improving emergency medical services and trauma care systems; 
increasing pedestrian and bicyclist safety; improving traffic record 
systems; and improving roadway safety. In addition, this funding will 
enable States to continue and expand the Safe Communities initiative, a 
community-based injury control approach to reducing traffic-related 
injuries.
    Incentive grant programs provide States with extensive flexibility. 
States have the option to apply for these grants. If a state chooses to 
pursue a grant, the State may choose which legal and program criteria 
to implement. NHTSA's incentive grant programs are:
  --Section 410 Alcohol-impaired Driving Countermeasures Incentive 
        Grant Program (requesting $40 million for fiscal year 2003) 
        rewards States that enact stronger laws and start effective 
        programs to stop drunk drivers and States that demonstrate 
        consistently high performance in reducing alcohol-related 
        fatality rates.
  --Section 405 Occupant Protection Incentive Grant Program (requesting 
        $20 million for fiscal year 2003) rewards States that implement 
        strong laws and programs to increase safety belt and child 
        safety seat use.
    Formula funds are spread over a wide range of highway safety 
issues, according to goals and priorities set by the States, and much 
of the funding is focused on community-level programs. Incentive funds 
target national priority initiatives that can make the biggest impact 
on the safety bottom line. Incentive funds are used to encourage States 
to implement tough laws and programs Statewide. When the States take 
the hard steps, the reward is extra funding to help support their 
efforts.

                               CONCLUSION

    Madam Chairman, this concludes my prepared remarks. In closing, I 
would like to thank you for your continued support of highway safety. I 
look forward to working with you in developing a strong and productive 
performance-based, results-oriented, fiscal year 2003 highway safety 
budget that will provide National leadership through effective and 
efficient programs. I would be pleased to answer any questions.

    Senator Murray. The Honorable Marion Blakey, Chairman of 
the National Transportation Safety Board.

STATEMENT OF HON. MARION C. BLAKEY, CHAIRMAN, NATIONAL 
            TRANSPORTATION SAFETY BOARD

    Ms. Blakey. Good morning, Madam Chairman, and good morning, 
Senator Campbell. I am very pleased to be here to represent the 
National Transportation Safety Board, and I am particularly 
pleased to be here today in my first appearance before the 
Committee with a group of people who really are leaders in the 
field of highway safety. They have made important contributions 
over the years.
    I have had the pleasure of working with Millie Webb for 
many years, Jeff Runge, Superintendent James McMahon. As I say, 
this is a group of people who really know the field, and I am 
delighted you have assembled such a panel today.
    I do want to say that the Board has worked in the field of 
highway safety in a broad range of issues. I have summarized 
those in my testimony, which I would like to submit for the 
record. But I would like to just briefly focus today, if I 
might, on four specific issues that I think are of critical 
importance and I hope will supplement some of the issues that 
others here are referring to.
    These are the use of booster seats by children between the 
ages of four and eight; the need for State laws on graduated 
licensing; the importance of having standard mandatory seat 
belt laws, primary laws; and finally the issue of drinking and 
driving. I think these are four areas that the Board has 
exercised real leadership on. And I would like to just tell--
quickly tell you where we are on this today.
    Madam Chairman, the more we learn and understand about 
highway safety, the more we know that the citizens of ours that 
are at the most risk, the most vulnerable are our children and 
young people. They are truly our most vulnerable passengers.
    The National Highway Traffic Safety Administration points 
out that over 90,000 children died in motor vehicle crashes, 
and over 9 million were injured during the 1990s.
    Of the children who died, 8,600 were between the ages of 
four and eight. In 1999, more than 70 percent of those children 
between the ages of four and eight were totally unrestrained 
when they died; and 13 percent were wearing lap and shoulder 
belts that their parents no doubt put on them thinking they 
were protecting them and, in fact, they were fatally injured.
    I think this is an issue we absolutely must address. The 
chilling numbers really should call us to action on this. It 
should be noted that Washington State was the first State in 
the country to enact booster seat legislation, and that is what 
I am really talking about today, the need for this.
    I applaud the Senate also for passing Senate Bill 980 on 
Monday, which, in fact, established a comprehensive approach to 
child passenger safety and child restraints. Too many parents 
buckle their children into adult restraint systems thinking 
they are protecting them, and they simply do not.
    Booster seats need to be recognized by the public as 
something that really provides a continuum in the protection of 
our children. When a child outgrows a child safety seat, they 
need to be put in a booster seat. And this is unfortunately 
something that most of our parents, I fear, still do not know.
    Without a booster seat, what essentially happens is that a 
child can slouch, slide forward. They can sustain abdominal 
injuries because of the ill-fitting belt. Often I think we have 
all seen children take that shoulder belt, put it behind them, 
because it cuts into their neck. It is highly uncomfortable. 
And what then occurs, of course, is we see head injuries. We 
see fatalities that never should have happened.
    Unfortunately, only eight States so far have enacted 
booster seat legislation. The Safety Board believes that all 
children of all ages should be properly restrained and covered 
by our child--by the State's restraint laws.
    We also think that NHTSA needs to look at the issue of the 
booster seat standards. Right now, they have standards up to 50 
pounds. They really need to go up to 80 pounds. And we think 
this is important.
    NHTSA also needs to publish a performance standard to 
prevent the degradation of seat belts when we are using seat 
belt adjustors for children. And they also need to require the 
installation of lap/shoulder belts in the center seat position 
in automobiles. And this, we believe can be done without 
duplicate testing.
    Now, a second area of board concern I would like to touch 
on is the issue of the disproportionate number of highway 
crashes that are sustained by teenagers. These are drivers 
between the ages of 15 and 20, who just recently obtained their 
license.
    It is really a national tragedy. What we see here is that 
young people ages 15 to 20 comprise less than 7 percent of the 
driving population; yet they are involved in twice that number 
of highway fatalities, 14 percent.
    Graduated licensing is an appropriate and important step in 
addressing this problem and reducing these needless injuries 
and deaths. What we essentially are talking about is giving 
young people a chance to adjust to the new challenges and 
responsibilities they have.
    Beginning drivers should be introduced, as the term 
implies, gradually to the responsibilities of driving. And this 
is something the States are more and more recognizing, but we 
need to exercise real leadership on this, because it is 
effective. And if we encourage States, we should have a 
continuum of responsibilities given to drivers on a graduated 
basis.
    A third issue that affects not just teenagers and children, 
as I have been talking about so far, but one I would like to 
touch on, is--because it is so critically important, is the 
issue of standard enforcement for safety belts. This is 
something where--we have before talked about it as primary 
enforcement, et cetera. And I think probably everyone in this 
room knows what is at issue here.
    It means that law enforcement officers need to be able to 
issue a citation, pull a driver over when a safety belt is not 
being used by a passenger or by the driver themselves, even if 
they do not have another reason to stop the vehicle.
    It is important because of some of the issues I was just 
touching on, in particular--and I think we forget this--adults 
who do not buckle up, they do not buckle up their children 
either. They do not exercise caution about others in the 
vehicle.
    So this is not just a question of individual driver rights 
responsibilities. A recent study found that when a driver is 
wearing a safety belt, 94 percent of the children in those 
vehicles will be buckled up.
    Do you know what the reverse is? They are not buckled up, 
only 30 percent. So I think we really have to recognize that we 
are addressing a bigger problem, and we are addressing 
vulnerable passengers, as well as those who are behind the 
wheel.
    Primary enforcement is one of the best ways to address the 
broad problem that Dr. Runge was referring to. Just as it is 
illegal to drive without your headlights on at night, it ought 
to be illegal to drive without a seat belt on.
    The final issue I will touch on--and I will do this briefly 
because we have got the world's best advocate on this front--is 
on the dangers of drinking and driving. This has been an issue 
that I have worked on for many years. I think it is 
terrifically important in terms of the attention of this 
committee.
    And in particular, I would like to touch on the issue of 
the hardcore drinking driver, which is an issue that the 
National Transportation Safety Board has worked long and hard 
on, in connection with MADD and others. These cause a 
substantial number of alcohol related fatalities on the 
highway, these individuals.
    According to NHTSA, over a 15-year period, between 1993--
1983 and 1999, at least 137,000 people died and almost 100,000 
people were injured at the hands of hard-core drinking drivers. 
These are the repeat offenders. These are truly the bad actors, 
people who are driving with a high blood alcohol concentration 
of usually over .15 percent.
    We believe that the Department of Transportation should 
evaluate changes and modifications to T21, the Transportation 
Equity Act for the 21st Century, and look at this issue of 
hard-core drinking drivers with new eyes, so that we can be 
more effective in addressing the problem with the States and 
developing a comprehensive system, which we fundamentally 
believe could turn that situation around.

                           PREPARED STATEMENT

    I will yield the rest of my time on the issue of drinking 
and driving to others here. But, Madam Chairman, I would be 
happy to answer questions. Thank you.
    Senator Murray. Thank you.
    [The statement follows:]

                 Prepared Statement of Marion C. Blakey

    Good morning Madam Chairman and Members of the Committee. It is a 
pleasure to represent the National Transportation Safety Board (NTSB) 
before you today on the subject of highway safety.
    This is my first appearance before the committee and I welcome the 
opportunity to talk about the Board's work in highway safety. As you 
would imagine, sometimes our investigations and research into making 
our roads safer do not receive the prominent attention that aviation 
safety receives. And yet, 90 percent of all transportation related 
fatalities occur on our nations roadways. Therefore, highway safety 
will always be one of our highest priorities as we fulfill our mission 
to make recommendations to improve safety, reduce accidents and 
injuries and, most importantly, save lives.
    The more we learn and understand about highway safety, the more it 
becomes clear that young adults and children are especially at risk 
each time they travel in a motor vehicle. Simply stated, our children 
are our ``most precious cargo'' and also our most vulnerable.
    According to the National Highway Traffic Safety Administration's 
(NHTSA) Fatality Analysis Reporting System (FARS), in the 1990s, over 
90,000 children died in motor vehicle crashes, and over 9 million were 
injured. Of the children who died, 8,600 were between the ages of 4 and 
8. That equates to about 16 children between the ages of 4 and 8 being 
killed each week in motor vehicle crashes. In 1999, more than 70 
percent of the children between the ages of 4 and 8 killed in 
automobile accidents were totally unrestrained, and 13 percent were in 
lap/shoulder belt restraint systems designed for adults.
    These chilling numbers should be a call to action for all of us. At 
the Safety Board, we have a ``Most Wanted'' program that highlights 
safety recommendations the Board believes should be acted on as soon as 
possible because they have the most potential to reduce accidents and 
save lives. The list contains several highway issues that focus on our 
young people. Before discussing on-going concerns, it should be noted 
that as a result of Board safety recommendations, many improvements in 
highway transportation for our young people have been made. For 
instance:
  --Airbags are being de-powered in new vehicles and in some instances 
        an airbag on/off switch has been provided to prevent serious 
        injury and death;
  --A nation-wide campaign was initiated to educate parents about the 
        importance of putting children in the back seats of vehicles 
        with air bags;
  --Child safety seat fitting stations are available nationwide to 
        assist parents and caregivers in properly installing child 
        safety seats; and
  --Shoulder belt anchor locations have been lowered in some vehicles 
        to better fit older children who no longer need a child safety 
        or booster seat.
    While this is a start, there remains much more to do.
    An issue that needs additional attention, and one that is on the 
Board's ``Most Wanted'' list, involves the use of booster seats by 
children between ages 4 and 8. Too many parents buckle their children 
into adult restraints believing that their child is safe. We know this 
is not the case. Booster seats need to be recognized by the public as 
the next step in child passenger protection after a child outgrows a 
child restraint system.
    Vehicle seat belts, like air bags, were designed to protect adults, 
not our smallest passengers. According to the Centers for Disease 
Control Prevention, children who have outgrown their child safety seats 
should ride in a booster seat that positions the shoulder belt across 
the chest, and with the lap belt low across the upper thighs. Without a 
booster seat, a child can slouch and slide forward, causing the vehicle 
lap belt to ride up on to the child's abdomen, resulting in serious or 
fatal injuries.
    Unfortunately, only eight States--Washington, California, Arkansas, 
New Jersey, Oregon, Rhode Island, South Carolina and Tennessee--have 
enacted some form of booster seat law. The Safety Board believes that 
children of all ages need to be properly restrained and should be 
covered by the States' child restraint and seatbelt use laws.
    With respect to the States and industry's efforts to address child 
passenger safety, we look to NHTSA to continue to move forward on some 
of our critical recommendations. I would like to cite these 
recommendations that will require NHTSA support:
  --An increase of booster seat standards from a maximum of 50 pounds 
        to a maximum of 80 pounds. This increase is being considered 
        under an upgrade to Federal Motor Vehicle Safety Standard 213. 
        Until this change occurs, many States have been hesitant to 
        upgrade their child restraint laws.
  --NHTSA published a notice of proposed rulemaking in August of 1999 
        to amend NHTSA's consumer information regulations and requests 
        information on the use of warning labels rather than 
        establishing a minimum performance standard for seat belt 
        positioners. The Safety Board views the changes to the agency's 
        consumer information regulations as an interim approach that 
        would not be an acceptable alternative to the intent of the 
        Board's recommendation that performance standards be 
        established for seat belt adjusters. The Board believes a 
        performance standard is necessary in order to prevent 
        degradation in performance of seat belts when seat belt 
        adjusters are used.
  --Finally, NHTSA has issued a final rule enabling all vehicle 
        manufacturers to install and test lap/shoulder belts at the 
        center rear position without the need for duplicate testing. 
        Although NHTSA's study on the effectiveness of lap/shoulder 
        belts in the back seat did not examine the effectiveness of 
        center rear lap/shoulder belts because of the limited number of 
        vehicles equipped with center rear lap/shoulder belts, the 
        Safety Board continues to believe their installation should be 
        required because of the added protection they afford to anyone 
        seated in the center rear position.
    Madam Chairman, another area of Board concern is the 
disproportionate number of highway crashes that involve teenage drivers 
between the ages of 15 to 20, young people who have only recently 
obtained their license to drive.
    Young drivers age 15 to 20 years comprise about 6.7 percent of the 
driving population, but are involved in 14 percent of the highway 
fatalities. Like other States cross the country, your State of 
Washington, Madam Chairman, has seen a disproportionate number of fatal 
crashes involving drivers between the ages of 15 and 20. They were 
involved in 25 percent of the highway deaths in 2000 that occurred in 
Washington. Traffic crashes account for 40 percent of all deaths among 
15 to 20 year olds, making traffic crashes the leading cause of death 
for this age group. Further, population trends indicate that the 
problem is likely to worsen as the teen population increases.
    Graduated licensing, also an issue on the Board's ``Most Wanted'' 
list, was first recommended to the States by the Safety Board in 1993, 
and is an important step that will reduce needless deaths and injuries 
on our highways and help thousands of young drivers to adjust to their 
new driving responsibilities. The current system does not teach young 
people to drive; it teaches them to pass a test. Learning to drive is a 
long-term process, one that cannot be effectively managed through the 
traditional driver education program. Once the mechanics are learned, 
additional training must be ``on the job,'' without necessary 
distractions, and with the assistance of a more mature and experienced 
driver. As their skills and maturity develop, new drivers can then 
proceed to full licensure.
    Beginning drivers should be introduced gradually to the driving 
experience. They should be provided the maximum time to practice, under 
the safest possible real-world conditions. For our young drivers to 
have the chance to develop, we need to create a support system that 
involves parents and guardians.
    Graduated licensing is effective, and provides the opportunity to 
save the needless loss of many of our younger citizens. Currently there 
are five States without any form of graduated licensing and 14 other 
States only have partial systems. We need to encourage and support 
these States in their efforts to strengthen their graduated licensing 
laws.
    An issue that affects not only our young people but all drivers is 
the need for standard enforcement of mandatory safety belt use laws. 
Standard enforcement means that law enforcement officers may issue a 
citation any time they observe an unbelted driver or passenger. The 
current secondary enforcement law allows an officer to issue a citation 
only if the officer has stopped the vehicle for some other reason.
    Increasing the safety belt use rate is a valuable measure for 
protecting children and is the most effective way of cutting the 
highway death toll. Adults who do not buckle up also do not buckle up 
their children. A study of crash data by Ford Motor Company found that 
when the driver is wearing a safety belt, 94 percent of the children in 
the vehicle are buckled. However, when adults are not wearing a safety 
belt, the portion of children restrained is only 30 percent. A national 
survey by the National Highway Traffic Safety Administration found 
similar results.
    Seatbelts are an important part of the safety equipment that is in 
every vehicle on our nation's roads. And I wish to acknowledge your 
commitment and efforts, Madam Chairman, to increase seat belt usage in 
your State. At nearly 83 percent seat belt usage, Washington has one of 
the highest rates in the country. But as you realize, Madam Chairman, 
we cannot be satisfied until each driver and passenger buckles up. 
Primary enforcement of seat belt usage is one of the most effective 
ways to increase seat belt usage in a State. Just as it is illegal to 
drive without headlights during darkness, so also should the States 
require that seatbelts be used by all occupants of all motor vehicles.
    Another issue that has been of concern to the Board for many years 
is the dangers of drinking and driving. Although public attitudes 
toward drinking and driving have changed significantly since the early 
1990s, we recently saw a rise in the number of alcohol-involved 
fatalities. Hard-core drinking drivers, those drivers who repeatedly 
drink and drive and those who drive with high amounts of alcohol, over 
0.15 percent blood alcohol concentration in their systems, cause a 
substantial number of the alcohol-related fatalities.
    According to the National Highway Traffic Safety Administration, 
from 1983 through 1998, at least 137,338 people died in crashes that 
involved hard core drinking drivers. NHTSA's data also indicate that 
99,812 people were injured in fatal crashes involving hard core 
drinking drivers during that same period.
    In 2000, the Safety Board issued a report regarding actions to 
reduce fatalities, injuries, and crashes involving the hard core 
drinking driver. The report outlined a model program that included 
sobriety checkpoints, administrative revocation of driver's licenses, 
adoption of an aggravated DWI offense, use of vehicle sanctions, 
alternatives to jail and use of jail/treatment combinations and 
recommended that the States establish such a program. The Board also 
recommended that the Department of Transportation evaluate 
modifications to the provisions of the Transportation Equity Act for 
the 21st Century so that it can be more effective in assisting the 
States to reduce the hard core drinking driver problems.
    We believe the adoption of our recommendations will go a long way 
to reducing the incidence of alcohol-related crashes, injuries, and 
fatalities caused by hardcore drinking drivers. School bus 
transportation is the safest means to transport students to and from 
school. In a special NTSB investigation report on the use of 15-
passenger vans for school transportation issued in June 1999, it was 
determined that State laws regarding student transportation do not 
provide uniform safety, and we expressed concern at the trend toward 
using nonconforming vehicles rather than school buses in pupil 
transportation. A nonconforming bus, such as a 15-passenger van, is a 
vehicle used for student transportation that meets the Federal 
definition of a bus but not the Federal occupant crash protection 
standards of school buses. This type of vehicle is frequently used to 
transport college sport teams, commuters, and church groups. When 
States allow children to be transported in vehicles not meeting Federal 
school bus construction standards, they undermine the Federal 
Government's intent of protecting school children. This trend is 
potentially serious because it puts children at greater risk of fatal 
or serious injury in the event of an accident.
    As a result of the Board's special investigation, the NTSB 
recommended to the States that all vehicles carrying more than 10 
passengers and transporting children to and from school and school-
related activities meet the school bus structural standards or the 
equivalent. We are encouraged that many of the States have responded 
favorably to our recommendation.
    In April 2001, NHTSA concluded that 15-passenger vans are more 
likely to roll over when fully loaded with occupants than when lightly 
loaded. NHTSA issued an advisory warning to users of 15-passenger vans 
urging that experienced drivers operate the vans and that occupants use 
restraint systems to improve occupant protection.
    Through on-going investigations, we have also become concerned that 
large vans have a propensity to roll over. Therefore, the NTSB is, 
therefore, conducting a safety study to determine other vehicle, 
driver, or highway characteristics related to large van accidents and 
the likelihood of rollover.
    Madam Chairman, before closing I would like to discuss an issue 
that is the subject of recent Safety Board recommendations, commercial 
truck and bus drivers who do not have proper medical certification to 
operate their vehicles.
    Medical certification, which qualifies an individual as being fit 
to drive a commercial vehicle, became a Federal requirement under the 
Motor Carrier Act of 1935. The qualifications have been modified and 
expanded three times since then, with the most recent major 
modification occurring in 1970.
    The Federal Motor Carrier Safety Administration (FMCSA) has medical 
oversight over approximately 400,000 interstate carriers and 9 million 
commercial drivers. FMCSA oversight of the biennial medical 
certification process is accomplished almost exclusively by three full-
time individuals. State oversight of the medical certification process 
for interstate drivers is not mandated by Federal regulations, and the 
decision to certify a driver as fit to drive typically rests with the 
individual examiner performing the physical examination on the driver.
    On May 9, 1999, in New Orleans, Louisiana, a motorcoach accident 
killed 22 passengers. Despite suffering from potentially incapacitating 
medical conditions, the driver involved in the accident was able to 
obtain a medical certificate by falsifying and omitting crucial health 
history information from the examination form. The examiner was able to 
determine that the driver had heart disease, and possibly kidney 
disease, but she believed that the Federal regulations did not preclude 
the driver from obtaining a medical certificate.
    Serious flaws exist in the medical certification process for 
commercial drivers. The ease in which the current medical certification 
procedures can be bypassed virtually assures that some unfit drivers 
will find their way behind the wheel of a commercial vehicle, 
endangering themselves and the motoring public. As a result of the 
Board's investigation of the New Orleans accident, the Safety Board 
recommended that the FMCSA and the American Association of Motor 
Vehicle Administrators develop a comprehensive medical certification 
program for both interstate and intrastate truck drivers. 
Implementation of these recommendations can help to make our highways 
safer.
    Madam Chairman, that completes my testimony and I will be happy to 
respond to questions.

    Senator Murray. Ms. Millie Webb, President of MADD.
STATEMENT OF MILLIE I. WEBB, PRESIDENT, MOTHERS AGAINST 
            DRUNK DRIVING
    Mrs. Webb. Good morning, Madam Chair and Honorable Senator.
    MADD is a grassroots, non-profit organization with more 
than 600 chapters nationwide. Our mission is to stop drunk 
driving, support the victims of this violent crime, and to 
prevent underage drinking.
    I am honored to be here today to testify in such good 
company. Dr. Runge and Chairman Blakey and Superintendent 
McMahon are three of the nation's top safety leaders.
    I also want to thank you, Madam Chair, and the members of 
this subcommittee for your leadership in the passage of a 
lifesaving national .08 blood alcohol concentration standard. 
We are looking forward to working with the subcommittee.
    But last year, the nation experienced the largest 
percentage increase in alcohol-related traffic deaths on 
record. In 2000, an alarming 16,653 people were killed in 
traffic crashes involving alcohol, representing 40 percent of 
the 41,821 people killed in all traffic crashes. Each of these 
deaths, the deaths of our precious loved ones, was 100 percent 
preventable.
    And as a result of this unprecedented increase in alcohol-
related traffic fatalities, MADD held an impaired driving 
summit in January. Many of the country's safety experts came 
together to discuss what could be done in the short-term and 
long-term to save lives and prevent injuries.
    Formal recommendations from the summit will be released in 
the spring, but I can tell you that life-saving legislation, 
aggressive enforcement, effective prosecution and significant 
funding will be among the top recommendations.
    As someone whose life was forever changed because of 
another's careless decision to get behind the wheel after 
drinking, I would like to briefly share my story as a way to 
define the need for appropriate and aggressive funding for 
traffic safety programs.
    On August the 14, 1971, Roy and I were returning home from 
Nashville in our car with our 19-month-old nephew, Mitch, and 
our 4-year-old daughter, Lori. At the time I was 7 months 
pregnant, but suddenly and tragically, our lives were forever 
changed.
    A man with a blood alcohol concentration of .08 rear-ended 
our car causing it to burst into flames. My family was 
catapulted into the roadway. Roy with his bare hands 
extinguished the flames that engulfed Lori and little Mitch and 
myself.
    With a broken neck and burns that covered over 73 percent 
of my body, doctors and nurses worked very hard to save me and 
the life of my then-unborn daughter, Kara. Our condition was so 
precarious that it would be weeks before Roy and I were told 
that little Mitch died 6 hours after the crash, and that our 
beautiful daughter Lori suffered for 2 weeks before dying from 
her burns that covered 75 percent of her body.
    Although born prematurely and legally blind as a result of 
the crash, Kara overcame her limited sight through her 
determination not to be imprisoned by negativity or darkness. 
While her sight may be weak, her insight has been great.
    NHTSA's traffic safety budget is woefully inadequate. Each 
year traffic crashes cause the loss of over--over 40,000 lives 
and hundreds of thousands of serious injuries. The resulting 
damage to America's economy is over $150 billion each and every 
year.
    In spite of these appalling human and economic losses, 
NHTSA's annual budget is only $400 million. Currently, NHTSA's 
overall budget does not reflect the importance of a drunk 
driving problem.
    Effective solutions to America's drunk driving problem 
require effective resources. The fiscal year 2003 requested 
budget reflects a nearly $3 million decrease for the impaired 
driving division from the fiscal year 2002 enacted budget.
    Although alcohol is a factor in 40 percent of all traffic 
deaths, only 26 percent of all funding available to the States 
through T21 is spent on alcohol driving--alcohol-impaired 
driving countermeasures. Too often, highway safety funding made 
available to the States is used for highway construction 
projects or other projects that do not advance our mutual goals 
to save lives and prevent injuries.
    Most significantly, the purpose of section 402 within T21 
is to support State highway safety programs designed to reduce 
traffic crashes and resulting death and injuries, but only 17 
percent of the section 402 funds go to alcohol impaired driving 
countermeasures.
    To combat this public health problem, Mothers Against Drunk 
Driving calls for the establishment of a dedicated national 
traffic safety fund to provide substantially increased 
resources for priority traffic safety programs.
    We know what will work to save lives and prevent injuries 
on our highways. One of the most effective ways to fight drunk 
driving is to conduct frequent, highly visible, highly 
publicized sobriety checkpoints across the country. In 
Tennessee and New York, these enforcement efforts have 
significantly reduced drunk driving. Checkpoint Tennessee was a 
weekly sobriety checkpoint program piloted by NHTSA that 
resulted in a 20 percent reduction in alcohol-related fatal 
crashes. MADD would like to request that this Subcommittee 
dedicate resources to sobriety checkpoint programs.
    I want to thank the subcommittee for allocating funds in 
the fiscal year 2002 budget to conduct paid advertising in 
conjunction with seat belt enforcement mobilization.
    A person's best defense against a drunk driver is his or 
her seat belt. Additionally, two of every three children killed 
in alcohol-related traffic crashes died while riding as a 
passenger in vehicles driven by intoxicated adult drivers. Most 
of these children were not properly restrained. Clearly, 
occupant protection plays an important role in the fight 
against drunk driving.
    MADD would like to request that the subcommittee consider 
allocating money to conduct additional impaired driving 
enforcement mobilizations. In October 2000, Congress passed .08 
BAC as the national standard for impaired driving as part of a 
transportation appropriations bill, and I want to thank you 
once more for that action.
    Prior to the passage of this law, approximately one State 
per year was adopting the .08 standard. Since 2001, 10 States 
have enacted this law. And last week, South Dakota passed a .08 
BAC, and this measure is pending in several other States.
    MADD will fight any attempt to eliminate or weaken the .08 
standard. Nationally, 58 percent of the alcohol-related traffic 
fatalities in 2000 involved drivers with a BAC of .15 percent 
and above.
    About one-third of all drivers arrested or convicted of 
driving while intoxicated are repeat offenders. To address 
high-risk offenders, MADD advocates mandatory sentencing, 
strict licensing, and vehicle sanctions in efforts to address 
substance abuse. We will work to incorporate elements from our 
higher risk driver program into the T21 reauthorization.
    In 1998, as part of T21, a new Federal program was 
established to encourage State adoption of open container laws. 
Currently 34 States and the District of Columbia have complied 
with the terms of this law.
    However, as written, the law allows for funding to be 
redirected to either highway safety or hazard elimination. And 
this ability to direct money into hazard elimination weakens 
the value of the Federal law. The--this loophole needs to be 
corrected. Otherwise, many States are simply engaging in a 
shell game.
    In conclusion, I hope my statements today offer some 
insight into MADD's policy positions and how we can accomplish 
our mutual goals to save lives and prevent injuries.
    With this subcommittee's leadership and the active 
participation of our Federal, State, local and private sector 
partners, MADD will continue our fight to reduce the number of 
deaths and injuries caused by drunk drivers.
    I would like to commend the subcommittee for its continued 
leadership by scheduling this hearing.

                           PREPARED STATEMENT

    Madam Chair and distinguished members of the subcommittee, 
I thank you for the opportunity to speak to you today. I would 
be pleased to take questions now and respond to the answers 
following the hearing.
    Senator Murray. Thank you very much, Mrs. Webb.
    Mrs. Webb. Thank you.
    [The statement follows:]

                  Prepared Statement of Millie I. Webb

                              INTRODUCTION

    Good morning, Madam Chair and distinguished Members of the 
Subcommittee. My name is Millie Webb, and I am the National President 
of Mothers Against Drunk Driving (MADD). MADD is a non-profit grass 
roots organization with more than 600 chapters nationwide. Our mission 
is to stop drunk driving, support the victims of this violent crime and 
prevent underage drinking.
    I am honored to be here today testifying in such good company. Dr. 
Runge, Chairman Blakey, and Superintendent McMahon are among the 
Nation's top safety leaders but perhaps more importantly, they are 
three of the Nation's top safety heroes.
    I also want to thank you, Madam Chair and the Members of the 
Subcommittee, for your leadership in the passage of the lifesaving 
national .08 percent blood alcohol concentration standard. We are 
looking forward to working with this Subcommittee and with Congress to 
achieve a fiscal year 2003 transportation appropriation that properly 
addresses traffic safety and to shape proposals for the reauthorization 
of the Transportation Equity Act of the 21st Century (TEA-21).
    Last year the Nation experienced the largest percentage increase in 
alcohol-related traffic deaths on record. In 2000, an alarming 16,653 
people were killed in traffic crashes involving alcohol, representing 
40 percent of the 41,821 people killed in all traffic crashes. Each of 
these deaths--the deaths of our precious loved ones--was 100 percent 
preventable.
    As a result of this unprecedented increase in alcohol-related 
traffic fatalities, MADD held an Impaired Driving Summit in January. 
Many of the country's traffic safety experts came together at the 
Summit to discuss what could be done in the short-term and long-term to 
save lives and prevent injuries. Formal recommendations from the Summit 
will be released in the spring, but I can tell you that lifesaving 
legislation, aggressive enforcement, effective prosecution, and 
significant funding will be among the top recommendations.
    We believe the Summit was an important step forward in the fight 
against drunk driving. The Nation needs to reenergize and refocus on 
the fight to stop drunk driving. It's time to get MADD all over again.
    The traffic safety field has set the goal of no more than 11,000 
alcohol-related traffic deaths by 2005. However, in order to reach the 
goal, we will need more money to be spent on effective programs and a 
renewed passion for making progress in this area. We need the public's 
energy and the political will to shake us out of a deadly plateau and 
back on the road to progress. Ultimately, one death is too many and 
MADD would like to reach a goal of zero alcohol-related traffic 
fatalities.

                                OVERVIEW

    As someone whose life was forever altered because of someone's 
careless decision to get behind the wheel after drinking, I would like 
to briefly share my story as a way to define the need for appropriate 
and aggressive funding for traffic safety programs.
    On August 14, 1971, my husband, Roy, and I were returning home from 
Nashville. In our car were our 19-month-old nephew, Mitchell, and our 
4-year-old daughter, Lori. At the time, I was also 7 months pregnant 
with our second child. Suddenly and tragically our lives were forever 
changed. A man with a blood alcohol concentration of .08 percent rear-
ended our car, causing it to burst into flames. My family was 
catapulted onto the roadway. Roy, with his bare hands, extinguished the 
flames that engulfed myself, Lori, and Mitchell.
    With a broken neck and burns that covered 73 percent of my body, 
doctors and nurses worked to save me and the life of my then unborn 
daughter, Kara. Our condition was so precarious that it would be weeks 
before Roy and I were told little Mitchell died 6 hours after the crash 
and that our beautiful daughter, Lori, had suffered two weeks before 
dying from burns covering 75 percent of her body.
    Despite the loss of my daughter, Lori, and my nephew, Mitchell, my 
family received a blessing through the birth of my baby Kara. Although 
born prematurely and legally blind as a result of the crash, Kara has 
overcome her limited sight through her determination not to be 
imprisoned by negativity or darkness. While her sight maybe weak, her 
insight is great.

                         TRAFFIC SAFETY FUNDING

    When our crash occurred, drunk driving laws and public perception 
were much different than they are today. Since 1982, more than 200,000 
lives have been saved through the passage of new laws, strict 
enforcement and prosecution and increased awareness. But we have not 
won the war and there is much more work to be done in the fight against 
drunk driving. Complacency is our biggest enemy.
    Madam Chair, as you consider your funding priorities, I would like 
to provide you and your colleagues with an overview of MADD's 
transportation appropriation and TEA-21 reauthorization priorities.
    NHTSA's traffic safety budget is woefully inadequate. Each year, 
traffic crashes cause the loss of over 40,000 lives and hundreds of 
thousands of serious injuries. The resulting damage to America's 
economy is over $150 billion each and every year. In spite of these 
appalling human and economic losses, NHTSA's annual budget is only $400 
million.
    Currently, NHTSA's overall budget does not reflect the importance 
of the drunk driving problem. Effective solutions to America's drunk 
driving problem require effective resources. The fiscal year 2003 
requested budget reflects a nearly $3 million decrease for the Impaired 
Driving Division from the fiscal year 2002 enacted budget. With drunk 
driving deaths on the rise, MADD cannot understand how NHTSA's fiscal 
year 2003 Impaired Driving Division would be able to reach its goals to 
reduce drunk driving deaths and injuries with even fewer resources.
    Although alcohol is a factor in 40 percent of all traffic deaths, 
only 26 percent of all funding available to the States through TEA-21 
is spent on alcohol-impaired driving countermeasures. Too often highway 
safety funding made available to the States is used for highway 
construction projects or other programs that do not advance our mutual 
goals to save lives and prevent injuries. Most significantly, the 
purpose of Section 402 within TEA-21 is to support State highway safety 
programs designed to reduce traffic crashes and resulting death and 
injuries, but only 17 percent of the Section 402 funds go to alcohol-
impaired driving countermeasures.
    Drunk driving is a national epidemic that demands significantly 
more resources than are currently being allocated. To combat this 
public health problem, Mothers Against Drunk Driving calls for the 
establishment of a dedicated National Traffic Safety Fund to provide 
substantially increased resources for priority traffic safety programs. 
The most effective way to reduce motor vehicle crash fatalities and 
injuries and the costs with which they are associated is through 
highway safety programs that focus on the prevention of impaired 
driving, and increased safety belt and child restraint use.
    It has been estimated that for every dollar spent on effective 
highway safety programs, about $30 is saved by society in the reduced 
costs of crashes. MADD recommends earmarked revenues of at least $1 
billion annually for the National Traffic Safety Fund, a sum that is 
still less than 1 percent of what this public health problem costs 
Americans each year. It is time to accelerate the Federal government's 
effort to reduce the devastating and costly consequences of motor 
vehicle crashes.
    The traffic safety and public health community knows what will work 
to save lives and prevent injuries on our highways. But, we need more 
funding for programs that have been proven to work. One of the most 
effective ways to fight drunk driving is to conduct frequent, highly 
visible, highly publicized sobriety checkpoints across the country. In 
Tennessee and New York, these enforcement efforts have significantly 
reduced drunk driving. ``Checkpoint Tennessee'' was a weekly sobriety 
checkpoint program piloted by NHTSA that resulted in a 20 percent 
reduction in alcohol-related fatal crashes extending at least 21 months 
after the conclusion of the program. The Centers for Disease Control 
(CDC) recently reviewed six different studies and concluded that 
sobriety checkpoints were highly effective in reducing alcohol-related 
traffic fatalities and injuries. However, numerous researchers conclude 
that sobriety checkpoints are not being used as widely as needed due in 
large part to a lack of resources. MADD would like to request that the 
Subcommittee dedicate resources to sobriety checkpoint programs.
    I want to thank the Subcommittee for allocating funds in the fiscal 
year 2002 budget to conduct paid advertising in conjunction with seat 
belt enforcement mobilizations. A person's best defense against a drunk 
driver is his or her seatbelt. Additionally, a recent Centers for 
Disease Control study found that two of every three children who die in 
alcohol-related traffic crashes died while riding as passengers in 
vehicles driven by intoxicated adult drivers. Clearly occupant 
protection plays an important role in the fight against drunk driving.
    MADD would like to request that the Subcommittee consider 
allocating money to conduct additional enforcement efforts in 
conjunction with the national ``You Drink & Drive. You Lose.'' impaired 
driving enforcement mobilizations. Again, highly visible enforcement 
efforts have proven to save lives and prevent injuries and MADD urges 
that these types of efforts be given top priority in allocating highway 
safety funding.

             .08 PERCENT BLOOD ALCOHOL CONCENTRATION (BAC)

    In October 2000, Congress passed .08 BAC as the national standard 
for impaired driving as part of the Transportation Appropriations Bill, 
and I want to thank you once more for that action. States that don't 
adopt .08 BAC laws by 2004 would have 2 percent of certain highway 
construction funds withheld, with the penalty increasing to 8 percent 
by 2007.
    Prior to the passage of this law, approximately one State per year 
was adopting the .08 standard. Since 2001, 10 States have enacted this 
standard. MADD will fight any attempt to eliminate or weaken the .08 
standard.

                       REPEAT/HIGH RISK OFFENDERS

    Nationally, 58 percent of the alcohol-related traffic fatalities in 
2000 involved drivers with a BAC of .15 percent and above. About one-
third of all drivers arrested or convicted of driving while intoxicated 
are repeat offenders. Both types of drivers represent a special danger 
on our roads.
    This is why MADD developed the ``Higher-Risk Driver Program,'' 
aimed at protecting the public from these dangerous drivers while at 
the same time addressing their alcohol abuse problem. To address high-
risk offenders, MADD advocates mandatory sentencing, strict licensing 
and vehicle sanctions, and efforts to address substance abuse. We will 
work to incorporate elements from our Higher-Risk Driver Program in to 
the TEA-21 reauthorization.
    States need to focus on comprehensive systems of laws that will 
address this hard-to-reach population, and all too often this 
legislation is only enacted on a piecemeal basis. These offenders must 
receive meaningful license restrictions, effective vehicle sanctions, 
and adequate treatment for alcohol problems.
    MADD will also be working for better data systems. Every State 
should have an adequate DUI tracking system to record the outcome of 
each DUI arrest so that it will be possible to identify plea bargains, 
pretrial diversions, or other operational problems. Such tracking 
systems would be very helpful in identifying repeat offenders. In too 
many States, repeat offenders are classified incorrectly as first-time 
offenders. It is imperative that State data systems are improved and 
that a better system for States to share this data be put into place.

                           UNDERAGE DRINKING

    Young drivers make up 6.9 percent of the total driving population, 
but constitute 13 percent of the alcohol-involved drivers in fatal 
crashes despite the fact that alcohol is an illegal product for those 
under 21. MADD supports Federal efforts to fund programs that promote 
greater consistency in the enforcement, prosecution and adjudication of 
youthful offenders.
    Research published in the American Journal of Public Health shows 
that the earlier a person begins drinking, the more likely they are to 
suffer from alcohol-related problems later in life including alcohol 
dependency and drunk driving. Therefore, underage drinking prevention 
is a key part of preventing future drunk driving tragedies.

                             OPEN CONTAINER

    In 1998, as part of TEA-21, a new Federal program was established 
to encourage State adoption of open container laws. To avoid the 
transfer of funds, States must certify that their open container law 
complies with certain requirements, that the law is in effect, and that 
it is being enforced.
    Currently, 34 States and the District of Columbia have complied 
with the terms of this law. However, as written the law allows for 
funding to be redirected to either highway safety or Hazard 
Elimination, and this ability to direct money into Hazard Elimination 
weakens the value of the Federal law.
    While the Hazard Elimination program is important, open container 
is an anti-drunk driving countermeasure, and if States fail to enact 
the law the redirected money should be spent on highway safety programs 
that reduce drunk driving deaths and injuries.
    Some States have refused to enact open container legislation and 
have simply transferred funds into their Hazard Elimination programs. 
This loophole needs to be corrected, otherwise many States are simply 
engaging in a ``shell game.''

                               CONCLUSION

    In conclusion, I hope my statements today offer some insight into 
MADD's policy positions and how we can accomplish our mutual goal to 
save lives and prevent injuries. It is critical that this 
transportation budget provide adequate and predictable funding for 
priority traffic safety programs.
    With this Subcommittee's leadership, and the active participation 
of our Federal, State, local and private sector partners, MADD will 
continue our fight to reduce the number of deaths and fatalities caused 
by drunk drivers. I would like to commend the Subcommittee for its 
continued leadership by scheduling this hearing.
    Madam Chair, and distinguished members of the Subcommittee, I thank 
you for the opportunity to speak to you today. I would be pleased to 
take questions now, and to respond to written questions following the 
hearing.

    Senator Murray. Superintendent James McMahon, New York 
State Police, General Chair, Division of State and Provincial 
Police, International Association of Chiefs of Police.

STATEMENT OF SUPERINTENDENT JAMES W. McMAHON, NEW YORK 
            STATE POLICE, GENERAL CHAIR, DIVISION OF 
            STATE AND PROVINCIAL POLICE, INTERNATIONAL 
            ASSOCIATION OF CHIEFS OF POLICE

    Mr. McMahon. Madam Chairwoman, it is a pleasure to be 
here--and Senator Campbell--representing the New York State 
Police as a career trooper, and the International Association 
of Chiefs of Police today in what I think is a very important 
matter you are discussing.
    I have submitted written comments. Many of the comments 
that I submitted, you summarized in your opening statement.
    I am keenly aware of the tragedies of 9/11, having had 500 
troopers at the direction of Governor Patakia around the Trade 
Center working in different areas and which they did for about 
5 months down there. Certainly, we saw what the hatred and the 
murderous acts that people are willing to do has changed our 
way of life, has certainly changed our focus in law enforcement 
in many ways.
    We now have to balance the potential of that hatred along 
with our traditional duties of protecting our communities from 
drugs and violent crime and keeping our highways safer.
    Well, we are proud of what we have done in New York State 
in all those areas and especially in the highway traffic safety 
area. In the year 2000, our last reportable statistics, we had 
the lowest fatality rate in New York's history at 1.15 per 100 
million miles driven.
    And we had the second lowest percent of alcohol-related 
fatalities in the United States only exceeded by the State of 
Utah. We are very proud of that also.
    Having said that, there were still 1,444 people killed. You 
mentioned the over 40,000 in the United States. As a career 
trooper for 35 years, I can tell you that many of those, if not 
the majority, are needless and preventable.
    We look at it from three factors, two causatives as the 
leading cause. One is alcohol, which everybody has talked 
about, impairment, today. You mentioned it. I concur with you. 
There is an apathy setting in, an apathy in the media in 
getting our message out, an apathy in the public. We had some 
great advances. Those are stalled right now.
    The area of teenage, underage drinking is a serious problem 
nationwide and in New York. When you look at the Califano 
report yesterday, it certainly emphasizes what is going on with 
our young people there. We do not really have the answer for 
that at this point.
    The second causative factor is speed. We are losing that 
battle, and have been losing that battle. I think there is 
something in the Constitution that says it is an inalienable 
right for Americans to speed. Nobody is addressing that 
sufficiently. We need research. We see a speed creep that has 
continued. It is going up.
    Our tickets from our troopers are going up about one mile 
an hour a year. On the interstates the fatality rates maybe are 
not showing that as much on interstates, but I think we need 
research to show what the fatality rates are in our rural two-
lane highways, because people continue to increase over the 55 
mile-an-hour speed limit when they go on the rural roads, like 
they do on the interstates. And those roads are not built for 
that.
    The third area is the number one preventive area, which we 
have heard today and that has to do with seat belts. There is 
no easier way, no matter what the causative factor is, to 
prevent a fatal accident.
    While we continually talk about fatalities, we do not talk 
about those debilitating injuries enough: People confined to 
wheelchairs for the rest of their lives; people confined to 
hospitals with head injuries for the rest of their lives. The 
majority of those are because they did not buckle up, or they 
did not have their child in a seat belt.
    So that is an area, I think, that needs tremendous focus. 
We have had great luck with that in New York State and we have 
had it because of good laws. We have had it from teamwork, and 
I am joined by colleagues here that have been part of that 
team. And we have had it because of enhanced Federal funding in 
the area.
    I would like to quickly walk through our program and 
demonstrate the results, because I think it can be used 
successfully in many other areas. We had the first primary seat 
belt law in the country. It was enacted in 1984, passed in 
1985.
    At that time, there was 12 percent compliance in seat belt 
use. The first year of that law, primary law, we went up to 50 
percent, which is like any law, most Americans are law-abiding.
    From 1986 through the early 1990s, we went up to about 70 
percent. And at that point, pretty much nationally and in New 
York State, the emphasis was on education and awareness, as 
people were becoming aware of seat belts and car seats at that 
time, not as much on enforcement.
    Through the mid-1990s, we became stagnant, pegged at around 
between 70 and 74 percent in the compliance rate. I was noting 
accidents, especially accidents with kids, rollover collisions, 
where people would be ejected and killed when we knew it did 
not have to happen if they had a seat belt on.
    So we started to look at what we could do. We met with 
Chuck Hurley and Janet Dewey, our partners, and Morrie Hannigan 
at National Safety Council and our partners at NHTSA. We saw 
several areas in the country where strict enforcement had 
worked; zero tolerance, strict enforcement. And we went about 
creating a program in New York State with partners involved in 
it from both law enforcement and otherwise to try to make a 
difference.
    We started our Buckle Up New York program. We set a goal. 
We moved from 74 to 85 percent compliance by the end of the 
year 2000.
    We asked our partners at NHTSA if they could tell us how 
many lives they thought we could save. They said 148. They also 
said it would be $400 million saved in insurance costs and 
medical benefit--medical costs, if we did that.
    We looked at the cultural sensitivity factor at the same 
time. We had Meharry Medical College study which you mentioned 
today, the over-representation of African-Americans, Native-
Americans. The Meharry College medical study said exactly what 
you were saying.
    We looked at a study in Erie County, New York at the Erie 
County Medical Center that replicated what the Meharry Medical 
College study said of the over-representation of young African-
Americans in unbelted accidents.
    And with that and the financial assistance, and the 
assistance of the National Highway Traffic Safety 
Administration, we conducted a diversity forum, before we 
kicked our campaign off in Albany, New York. And we brought 
representatives in from throughout New York State, Urban 
League, NAACP, ACLU, different other minority groups to our 
academy, faith-based groups.
    We showed them the Meharry study, indicated what we wanted 
to do, showed them the over representation of their youngsters 
being killed in these accidents, and got tremendous support 
from them in the campaign.
    As we opened the campaign in May of 1999, we indicated we 
were going to have three 10-day waves, zero tolerance waves, 
but we knew if we were going to make a mark, we had to have the 
support of local law enforcement. In New York State, we are 5.9 
percent of the police staffing levels. We do 41 percent of all 
tickets, enforcement. We do 23 percent of all DWI. And we were 
doing over 40 percent of all seat belt enforcement at that 
time.
    If we were going to make our mark, we had to get the help 
of local law enforcement. In many instances, they do not 
consider traffic safety a primary function. To do that, we 
needed Federal funding sources, which was provided by NHTSA 
through our governor's rep, with innovative grant process that 
we encouraged local law enforcement to get participation, and 
ended up with over 400 agencies participating in our waves.
    Over seven waves now, starting in May of 1999, we wrote 
over 300,000 tickets--unfortunately, 9,600 of them for car 
seats. In today's times, we think that is unbelievable. But our 
compliance rate went from 74 percent to 88 percent.
    Two thousand's figures showed that there were 141 fewer 
deaths in New York State, so we almost made the 148. And you 
can figure how much money was saved then. We could not have 
done that without the Federal assistance and funding levels we 
had, without our partners in doing it.
    The last area we have heard about is child's seats. Again, 
from a cultural sensitivity standpoint, I have no trouble 
giving anyone a ticket that does not put their child in a seat. 
I do, if they do not have the economic wherewithal to get a 
child seat. So part of our program has been outreach to the 
minority communities especially, or the poor communities in New 
York State, and having car seat clinics in those locations.
    And if they do not have the financial resources for a car 
seat, we are providing it and, again, that is from Federal 
funding through the Governor's Traffic Safety Committee in New 
York State.
    So I think that strategy that saved 141 lives in 18 months 
can be applied to the alcohol-related area. It could be applied 
to any of the areas. And if it was done, good laws, primary 
laws, teamwork, Federal funding, working closely together, we 
could have an impact if we attack those causative factors of 
alcohol, speed and the preventative factor of seat belts.

                           PREPARED STATEMENT

    Madam Chairwoman, it is a pleasure for me to be before your 
committee today.
    Senator Murray. Thank you very much.
    [The statement follows:]

                 Prepared Statement of James W. McMahon

    Good morning Senator Murray. I am James W. McMahon, Superintendent 
of the New York State Police. I would like to thank you and the entire 
Subcommittee on Transportation for the opportunity to discuss with you 
a topic which I consider of the utmost importance in my capacity as 
both the Superintendent of the New York State Police, and as General 
Chair of the State and Provincial Division of the International 
Association of Chiefs of Police. Issues of highway safety have profound 
impacts on communities in New York State and across this country. Our 
roads tie those communities together, move our commerce and thereby 
unite us. Unfortunately, our roads and highways also kill more than 
40,000 mothers, fathers and children each year, and the majority of 
those deaths are needless and preventable.
    Highway safety was one of the founding missions of the New York 
State Police in 1917, and the importance of that mission has never been 
greater. The New York State Police is not a highway patrol, as such. It 
is a full service police agency, providing general enforcement and 
police services to all of New York's rural communities, as well as 
support services to the State's urban police forces, including a 
criminal detective force of 980 members. But there is no mission more 
important, even today, than the safety of our roads and highways, 
because there is no issue which impacts the lives of the average 
citizen more often and more dramatically.
    We are proud of our highway safety record in New York State. The 
year 2000 (the last year for which complete statistics are available) 
was our safest in history, dating back to the early 1920s. Our highway 
fatality rate of 1.15 deaths per 100 million vehicle miles of travel, 
was among the lowest nationally, and the percentage of those deaths 
which were alcohol related was second lowest in the nation. Having said 
that up front, I can attest to you that those life-saving records could 
not have been achieved without strict and targeted enforcement, which 
was enhanced by federal funding to the States through the National 
Highway Traffic Safety Administration (NHTSA). The same is true of 
other States with low fatality rates.
    New York's highway safety enforcement strategy is data driven and 
results oriented. We apply significant resources to target three main 
areas: excessive speed, impaired driving and failure to wear safety 
restraints. As I'm sure is the case in other States, these persistent 
threats are responsible for the majority of highway tragedies. The 
first two, alcohol or drug impairment and speeding, are causative 
factors. The third, the use of safety restraints, is the number one 
factor in preventing deaths or serious injuries, regardless of 
causation.
    Let me begin by talking about the last factor first, because it is 
the easiest way to improve safety, and it affects the human outcome in 
all crashes. To do so, I will provide some history and detail of our 
successful Buckle Up New York Campaign, and the impact this program has 
had on the safety of all New Yorkers.
    New York State was the first State in the nation to enact a 
mandatory safety belt law in 1984. The law became effective January 1, 
1985. It was a primary law from the start, enabling police to stop 
violators solely for not wearing a safety belt. Prior to the law taking 
effect, only 12 percent of motorists wore seat belts, and in 1984, 
1,012 unrestrained occupants were killed on New York's highways. The 
year the mandatory seat belt law took effect, seat belt use jumped to 
50 percent and the number unrestrained deaths dropped to 644. New 
York's mandatory seat belt law saved 368 lives that year alone.
    Over the next 5 years, compliance with the new law rose steadily to 
about 70 percent. As with the rest of the nation, these increases in 
seat belt use were largely the result of programs at the federal and 
State levels, which placed their main emphasis on education and 
awareness. But these campaigns reached a level of diminishing returns 
in New York State by the mid-1990s, and the steady increases in belt 
use stagnated at 70-75 percent between 1994-1998. At the same time, we 
in the State Police began to notice a recurrence of crashes where lives 
were needlessly lost because the occupants were unrestrained, and we 
began discussions about how to increase the use of safety restraints.
    Shortly thereafter, I had discussions with NHTSA administrators and 
Mr. Chuck Hurley and Ms. Janet Dewey of the National Safety Council's 
Air Bag and Seat Belt Safety Campaign, about developing a strategy to 
get the remaining 25 percent of New York motorists buckled up. We 
studied strategies employed elsewhere in this country and abroad, and 
determined that the only strategies which were effective anywhere in 
the world, were those which employed a zero-tolerance enforcement 
approach. We researched the New York State crash data by location, age 
and gender to learn about specific target groups. Lastly, we researched 
the field of occupant safety regarding these target groups, including a 
landmark literature review by the Meharry Medical College, which 
identified a significantly at-risk population of young African-American 
males. Subsequently, we established a goal of 85 percent safety belt 
use by the end of the year 2000, and developed a strategy of highly 
visible zero-tolerance enforcement. We presented the plan to NHTSA and 
asked their experts to estimate the safety impacts of increasing belt 
use from 74 percent to 85 percent in 18 months. NHTSA estimated that if 
successful, 148 lives and $400 million in insurance and medical costs 
could be saved. With this objective in mind, the Buckle Up New York 
Campaign was instituted in May 1999.
    We in the State Police knew from the start that we could not 
achieve this objective alone. As is similar in other States, New York 
State Troopers accounted for 47 percent of all occupant restraint 
enforcement, 55 percent of all speed enforcement, 23 percent of all 
impaired driving enforcement and 41 percent of total traffic 
enforcement in the State, yet comprise just 5.9 percent of police 
manpower. Despite this enforcement presence, an even more extensive law 
enforcement commitment would be necessary to change public behavior. 
The participation and cooperation of local and county law enforcement 
would be critical.
    In some cases, local law enforcement agencies did not, consider 
traffic enforcement a primary mission. In order to involve them, we 
needed a complete package. We had an attainable goal. We developed a 
workable strategy, which involved 3 annual enforcement waves, which 
supplement year-round enforcement efforts. These waves would be 10 days 
long and preceded by 10 days of heightened media. But we knew the local 
agencies would not, and in most cases, could not participate without 
additional funding for the additional enforcement. For this we needed 
the assistance of NHTSA, through the offices of our Governor's Traffic 
Safety Committee.
    When Governor George E. Pataki, nominated me as Superintendent of 
State Police, he provided me a mandate to continue to improve the 
safety of New York's highways and communities by working in cooperation 
with local authorities. That is a mandate I take very seriously. But 
while the governor had made great investments in improving the 
capability of the New York State Police to safeguard the highways, 
including 100 additional troopers, new electronic breath test 
instruments and state-of-the-art speed enforcement instruments, I knew 
that in this case fulfillment of that mandate meant improving the 
capability of other agencies. Only by ensuring funding for the county 
and local agencies, could we improve the safety of our roads and 
highways statewide.
    NHTSA and the Governor's Traffic Safety Committee responded in 
dramatic fashion, providing funding to any agency willing to join the 
enforcement effort. A streamlined funding application procedure was 
implemented through a State Police law enforcement liaison assigned for 
this purpose. Letters were sent to each police chief and sheriff, and 
each was visited personally to enlist his or her support. In addition, 
an extensive child passenger safety program was implemented in 
partnership with other State agencies, local law enforcement and other 
safety practitioners, to improve the safety of our smallest and most 
vulnerable vehicle occupants. With the support of available federal 
funding, a comprehensive Buckle Up New York Campaign began to take 
shape.
    In order to build greater support in minority communities, we 
partnered with NHTSA to host a diversity forum at the New York State 
Police Academy. In attendance were representatives from the NAACP, 
ACLU, Local Urban Leagues, educators, and leaders of faith-based 
communities, some of whom could not have attended without the financial 
assistance provided by NHTSA. Attendees were informed of the findings 
of our research and asked to be part of the solution. The result was 
great community support for our enforcement efforts and relationships 
which continue to this day.
    The second phase of this outreach involved improving the capability 
of the economically disadvantaged to safeguard their children. While I 
consider failure to protect child passengers gross neglect and strict 
enforcement child seat laws is warranted, it is also necessary to 
ensure that those without the financial means to protect their 
children, are provided with the means to do so. Once again, we turned 
to our partners at the Governor's Traffic Safety Committee and NHTSA 
for federal funding, and today a statewide mechanism is in place to 
ensure that no care-giver will be denied access to child restraints due 
to their economic status. This has significantly improved our 
relationships in minority communities.
    Since may 1999, seven Buckle up New York enforcement waves have 
been conducted, resulting in the issuance of more than 300,000 tickets 
for failure to wear restraints. More than 9,600 of those tickets were 
for child restraint violations. The statewide average safety restraint 
use rate has been measured as high as 88.3 percent, a significant 
increase from the 74 percent recorded prior to the first wave. Most 
importantly, 141 lives were saved between 1999 and 2000, nearly 
reaching NHTSAs estimate of 148.
    Throughout the campaign, the involvement of local and county level 
enforcement grew, which contributed significantly to the outcome. 
During the first wave, local and county enforcement accounted for about 
a third of the enforcement effort, but by the end of the seventh wave, 
accounted for 42 percent. More than any other component, this 
involvement was critical to the successful and life-saving outcome of 
the program, and could this not have occurred without significant 
federal funding.
    Please allow me to summarize the main points of our recent 
experience in increasing safety restraint use in New York State, 
because I believe the effective strategies used in the Buckle Up New 
York Campaign, with the support of critical and targeted funding 
provided by NHTSA, can be replicated in States nationwide.
    First, proper use of seat belts and child restraints is the most 
effective way to prevent needless deaths and debilitating injuries, 
regardless of the actual cause of any motor vehicle crash. These 
tragedies exact a great cost and result in widespread suffering in 
American society, and buckling up is the easiest means of prevention.
    Second, enforcement works. When applied across the board by State, 
county and local agencies, the potential of receiving a ticket for not 
wearing a seatbelt is the impetus required to achieve rates of seat 
belt use in excess of 80 percent.
    And third, the additional enforcement required to significantly 
raise seat belt use and thereby save lives and prevent injuries, cannot 
be accomplished without federal funding. This is especially true in 
light of recent demands for enhanced security efforts, and their fiscal 
implications on State and local budgets. Without the federal 
assistance, lives will continue to be needlessly lost on our highways.
    While we have not yet solved the problem of unrestrained occupants 
in New York State, I believe we have found the formula to address it. 
We witnessed nearly a 10 percent reduction in fatalities in New York 
State since implementing Buckle Up New York. It is a model which we 
adopted from others, and it can work elsewhere in America as well.
    In the time remaining, let me turn to the other two highway safety 
concerns, impaired driving and excessive speed.
    There has been great progress made in reducing the incidence of 
impaired driving in the U.S. in recent years, but I fear that apathy is 
setting in, and today we are at risk of relinquishing some of the gains 
made. In highway safety, apathy equals lives lost. The downward trend 
in impaired driving deaths has leveled off, and more attention and 
innovation may be necessary to prevent greater loss of life.
    Impaired driving is a continual concern in New York State, 
particularly where our youngest drivers are concerned. Drivers under 
age 21 make up just 5 percent of the licensed drivers, but are involved 
in 14 percent of fatal crashes in New York. Compounding the problems, 
recent census data indicate that the number of licensed drivers under 
age 21 in New York State will grow by 25 percent in the next decade. 
Therefore, if nothing is done, more young lives will be lost.
    We are attempting to apply the strategies employed in the Buckle Up 
New York Campaign to impaired driving and underage drinking. We are 
developing joint enforcement operations with county and local 
enforcement agencies and the State Liquor Authority to improve 
enforcement of underage consumption and sale of alcoholic beverages. In 
addition, we have the benefit of a State mechanism to fund local 
impaired driving countermeasures. A State law titled Special Traffic 
Options Program for Driving While Intoxicated (Stop-DWI), returns fines 
imposed on impaired driving violators to county level administrators to 
fund additional enforcement efforts. This law, enacted in 1982, is one 
of the main factors contributing to New York's success in combating 
impaired driving. As in the effort to improve safety restraint use, 
coordinated statewide efforts offer the greatest promise to preventing 
impaired driving, and continued funding will be necessary to support 
those efforts.
    In the last area, speed enforcement, I dare to say that law 
enforcement is currently losing the battle. Non-compliance with speed 
limits is widespread in New York State and nationwide. Like no other 
law, many behave as though it is their inalienable right to speed, and 
unfortunately for too many, the results are tragic. In New York State, 
24 percent of fatalities in 2000 were attributable to excessive speed. 
Addressing the issue will take a large scale programming and additional 
resources to provide new technologies and the staffing necessary to 
implement them.
    In closing, I would like to say what I have said to many recruit 
troopers at the State Police Academy. It is hard to prevent a murder 
which occurs behind closed doors, but it is relatively easy to prevent 
a murder on the highway by stopping a drunk or speeding driver. So too, 
it is relatively easy to prevent the needless death of an occupant who 
does not buckle up or of a child who's safety is unconscionably 
neglected by being left unrestrained. And although we may not remember 
the faces of the people we save, we certainly do remember the faces of 
those we fail to save. Both are equally real, and it is incumbent upon 
us to prevent the latter.
    Senator Murray, that concludes my testimony. Again, I want to thank 
you and the entire committee for this great opportunity to express my 
views on highway safety. I would be happy to answer any questions you 
or the subcommittee may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Murray. We do have a vote on. We have 7 minutes 
left in that vote. I am going to ask one quick question and 
then let Senator Campbell, and we will recess and come back.

                      REDUCED CORE PROGRAM REQUEST

    Dr. Runge, the Administration sent up a budget request that 
cuts the overall funding for NHTSA's core highway safety 
programs by 26 percent. We know that 90 percent of all 
transportation related fatalities occur on our nation's 
highways, and that motor vehicle crashes are the leading cause 
of death for ages four to thirty-three.
    We also know that cancer is another leading cause of death 
and the National Cancer Institute's budget received an increase 
of 22 percent.
    Can you explain to us why the Administration, it seems, 
thinks that highway safety is such a lower priority for this 
Administration?
    Dr. Runge. Thank you, Madam Chairman.
    I will hope you understand that coming into a department 
that has faced extraordinary challenges in the last 4 or 5 
months has dramatically changed the landscape. We do not have 
authority over cancer funding or cancer resource deployment, 
but we do have authority and the responsibility over 
transportation.
    I do believe that the priorities have shifted all over this 
country and maybe most poignantly within the Department of 
Transportation. As you yourself said, security somehow has 
taken on new meaning. We used to say ``safety and security.'' I 
think everybody now understands that security has some very 
unique needs.
    You will not find a fiercer advocate for highway safety 
than I, as I enter future budget processes. I have a very 
close-to-the-ground view of the highway safety problem.
    I do not have a view from the mountaintop, or even much 
less from the satellite, about the priorities of the 
Administration, given the limited resources. I would only ask 
you to please understand the primary predicament that the DOT 
finds itself in in this particular year with respect to the 
need to take a stand. DOT is an agency which needs tens of 
thousands of new employees and frankly, I wonder where all the 
resources, not just monetary, but all the human resources are 
going to come from.
    So I am sympathetic to the challenges that we face in the 
Department, and thereby in the entire budget process this year. 
I fully support the President's budget, and we will try our 
best to work smarter and more efficiently to do the best we can 
with the resources that we have.
    Senator Murray. I would like to explore that a little bit 
more.
    We do have a vote on. I am going to recess temporarily, and 
come right back, and we will continue this conversation.
    Senator Murray. This committee will reconvene.
    And I will turn the time over to Senator Campbell for 
questions.

                      TRUCK AND MOTORCYCLE SAFETY

    Senator Campbell. Oh, thanks, Madam Chairwoman.
    I have got notes all over the place, so I am going to have 
to skip around a little bit here, but I wanted to just focus on 
a couple of things that I know a little bit about, not much, 
but a little.
    One is trucks and one is motorcycles. I was particularly 
interested in reading the statement by Jeffrey. And I commend 
NHTSA for all the work they have done in trying to reduce 
highway fatalities and highway accidents in general.
    I note with interest that your statistics say that there 
seems to be a decrease in automobile deaths and accidents, but 
increased with motorcycles; so let me start there. I think that 
one of the problems I have with a lot of just raw numbers is 
they do not talk about the causal effects about who or why or 
the circumstances.
    And I note that it does not say in your report, Jeff, but I 
saw in some other reports that the accidents with motorcycles 
have gone up about 4 percent this year. But it did not say that 
the numbers of riders have gone up by 10 percent for the last 3 
years in a row, roughly 30 percent more now than were riding a 
few years ago.
    And I will tell you I am out there sometimes, so let me 
tell you who they are. An awful lot of them are 45-to 60-year-
old white collar workers earning about $65,000. That is the 
demographics from some of the manufacturers. And a lot of them 
are too macho to take lessons.
    And they are guys who Mom told when they were 16, ``You 
cannot have one.'' Well, Mom is gone. And now they have plenty 
of money, and they have not been on anything with two wheels 
since they were 16, and it was a bicycle. And I think that is 
one of the real problems of why the accidents and deaths are 
going up if they are not car/motorcycle related because, as I 
understand it, if they are car/motorcycle related, about two-
thirds of the causes are by the car--the automobile, not the 
motorcycle.
    And, you know, most States have mandatory training. If you 
want to get a license in high school, you have to take a 
driving training class. And I certainly support that, but they 
do not have that with motorcycles.
    So too many times, I think, people learn just by hook or 
crook or by somebody or something. There is no real system by 
which they learn a safe method of riding.
    We do have rider training, but it is strictly voluntary. 
They do not have to take that. And I am thinking that we ought 
to be doing more along that line.
    The other thing too is that I think the manufacturers are 
trying to make some more efficient and better safety 
mechanisms. I remember a few years ago, I read a lawsuit filed 
against one manufacturer in which a man lost his leg in an 
accident, and he won that lawsuit, by the way.
    But motorcycles do not have the same kind of cruise 
controls cars do, as you probably know. Most of them are set by 
a thumb screw, or they are set some way, but you override them 
by hand. But if you are too damn dumb, and you set it so tight 
you cannot override it by hand, then you are going to have a 
wreck. Simple as that.
    And that guy did. He set the thing so tight, he came to a 
corner, and he could not slow down. He went off the road, and 
he lost his leg. He is lucky he did not lose his head. But 
somewhere along the line, he should have had some training.
    I do not know whose responsibility that is, but it seems to 
me that that is one of the things that we need to focus on. The 
other thing, too, is this whole issue of helmets and I support 
the use of helmets with the youngsters and certainly beginners. 
I do not use them myself, never got used to the things, unless 
by law, I have to.
    But you probably know that no manufacturer, at least not to 
my knowledge--I have not seen one manufacturer that will 
guarantee them over 15 miles an hour. So what the heck good 
does it do?
    I got in a wreck some years ago and I hit some gravel and 
when I went to the hospital--I broke my arm. And the doctor 
asked me if I was wearing a helmet. And I said, ``On my arm?'' 
I mean, you know, there is a lot of different kinds of ways of 
getting hurt on those things.
    But I used to fly too, and sometimes I think that there are 
two people that are suicidal: Those who fly when they are 
drinking, and those who ride motorcycles when they are 
drinking.
    Maybe when you drive a car, it is considered bad judgment. 
But when you are riding a bike, it is stupid and crazy to do 
that. Somewhere along the line, more of that has to be done in 
training and I just want to encourage NHTSA to do more of that.
    And certainly from my standpoint on the committee--I will 
not be quite as hard on President Bush as the Chairwoman was. 
But I agree with her that we do not have enough money in this 
budget, for safety training. And I would just want to tell you 
that I am going to do everything I can to try and make sure it 
is increased.
    Let me just ask--I will not ask anything about motorcycles. 
Really, I just wanted to point that out.
    But I am also interested since last year, as you remember, 
we got in a terrific fight and the Chairwoman and Senator 
Shelby and I and several others really opposed the section of 
NAFTA that would allow Mexican trucks to come north into the 
U.S.
    Well, they are coming, as you probably know. That has been 
settled. And they are coming. And there has been some safety 
restrictions put on how they operate and so on.
    But my question is: Is NHTSA anticipating that influx of 
Mexican trucks? And if they are, what are you doing to network 
with other agencies? Because a lot of the things that we saw in 
testimony and comments when we were dealing with this last year 
was that there is very poor training on the part of the drivers 
from Mexico; sometimes a lot of mechanical errors. They do not 
keep their log books. All that stuff, that will not be under 
NHTSA's jurisdiction, but it seems to me there has got to be 
some kind of interaction.
    Dr. Runge. Thank you for your question, Senator Campbell. I 
can tell you that this issue is extremely important to the 
Department. Deputy Secretary Michael Jackson has taken a very 
personal interest in this, and has devoted a lot of time to 
coordinating the agencies responsible for the different pieces 
of this puzzle.
    Our responsibility has to do with the Federal Motor Vehicle 
Safety Standards. I can assure you that it is our position that 
the trucks that come into this country need to be as safe as 
the trucks that are already here in this country, and that we 
will ensure that they do meet Federal Motor Vehicle Safety 
Standards.
    Our piece of those rule makings has been completed, and the 
Department will coordinate their release with those of the 
Federal Motor Carrier Safety Administration.

                             SHARE THE ROAD

    Senator Campbell. All right. Speaking of safety, in the 
2002, Transportation Appropriations Bill, we had some language 
included that provided additional funding for what was called 
``no zone, share the road.'' It was an educational program that 
it dealt with truck driver fatigue and also it was to try to 
educate people of the dangers of getting too close when they 
turn, things of that nature. Do you know the status of that 
funding request?
    Dr. Runge. Actually, Senator, that is under the authority 
of the Federal Motor Carrier Safety Administration
    Senator Campbell. Okay.
    Dr. Runge [continuing]. It is not ours, although we do have 
a great interest in that as well. I have seen the trucks, and 
they look good.
    Senator Campbell. Yes. Well, okay. Maybe I should address 
some of these questions to the Federal Motor Carriers Safety 
Administration rather than NHTSA, but I thought you might have 
some comments about it. Thank you, sir.
    Madam Chairman.

                        IMPAIRED DRIVING PROGRAM

    Senator Murray. Thank you, Senator Campbell. We will have a 
hearing on the Mexican truck issue late spring/early summer as 
well.
    Dr. Runge, alcohol-related fatalities were steadily 
declining from over 17,000 deaths in 1995 to just under 16,000 
in 1999. But in 2000, we saw an increase in the number of 
fatalities. There were 677 more alcohol-related fatalities than 
in 1999.
    The alcohol-related fatality rate in my own home State of 
Washington is 10 percent higher than the national average, and 
I find that really unacceptable. But I also find it 
unacceptable to cut NHTSA's core impaired driving program by 22 
percent below last year.
    Can you explain to this committee why you decided to cut 
the funding for your impaired driver program at a time when 
alcohol-related fatalities are increasing?
    Dr. Runge. Yes, ma'am. Thank you for the chance to speak 
about that.
    As I think you know already, I am committed to this issue. 
The Department--NHTSA was asked to submit a level budget 
request. Our base level lacked the $2 million that that your 
Committee gave us for repeat offender programs. So, from base 
level, it actually, does not represent a decrease. It is flat 
funding. Is that sufficient to----
    Senator Murray. My reading of the budget is that the 
impaired driving program is cut by 22 percent.
    Dr. Runge. Right. We submitted a flat fiscal year 2003 
request over our request from fiscal year 2002. What was 
actually enacted for fiscal year 2002 was higher.
    Senator Murray. So you did not look at what the Committee 
did.
    Dr. Runge. Yes, ma'am. Actually, as I understand it--and I 
just came in August, the 2002 budget came rather late in the 
2003 cycle. As I understand it, the fiscal year 2003 machine 
started running before the Committee's fiscal year 2002 
enactment actually occurred.
    Senator Murray. So if this Committee were to increase 
funding for that this year, you would go back to where you were 
2 years ago and go flat again for a year from now?
    Dr. Runge. Well, let me say that we would use that very 
efficiently, I promise you. However, I think you said it 
earlier, if the resources can be found. I believe that we have 
a budget that reflects our priorities. I can promise you, also, 
that the money that we have this year will be spent very 
efficiently. We will use the crosshairs rather than the wide 
choke on the shotgun.

                SEAT BELT USE IN ALCOHOL-RELATED CRASHES

    Senator Murray. Can you share with this Committee what 
NHTSA's research shows about the use of seat belts for 
individuals involved in alcohol-related crashes?
    Dr. Runge. I am not sure exactly what you mean. I can tell 
you they work as well as they do for sober people.
    Senator Murray. Marion Blakey, do you know?
    Ms. Blakey. I do not know. If I am understanding, the 
question is if we are talking about people who are impaired, 
their percentage of seat belt use----
    Senator Murray. Right.
    Ms. Blakey. I do not know those figures. Now, we can 
certainly get them, I believe, for you.
    Millie, can you address that?
    Senator Murray. My understanding is that people who are 
alcohol impaired are much less likely to use their seat belts.
    Dr. Runge. Oh, that is correct.
    Ms. Blakey. That is true. I just do not know what 
percentages it is.
    Dr. Runge. I am sorry. I did not know that that was what 
you were asking. Yes.
    Senator Murray. Yes. Okay.
    Millie, maybe you can help us here. Why do you think there 
is a spike in fatalities in 2000?
    Mrs. Webb. Well, I think America has, you know, really 
become complacent. And when I--especially this morning when I 
heard your remarks, I think we need to have some real education 
when it comes, you know, perhaps maybe to the Administration.
    I deal on a regular basis with friends and loved ones who 
are battling cancer. But as a victim advocate, and I--you know, 
I heard you mention the figures, figures of 20 percent 
increase, yet a--but not that kind of increase for highway 
safety. And, you know, we have seen 7,000 people die by drunk 
drivers just since September the 11.
    But, you know, as a victim advocate, many years I have 
worked with victims and, you know, what we have got to make 
Americans realize is that if they are on the roadway, they are 
a potential victim. And you can--you know, you can have the 
research all day about cancer but, you know, I have worked with 
victims whose loved ones survived cancer only to be killed by 
drunk drivers. I have been in States where someone who just 
received a liver transplant is killed by a drunk driver.
    You know, we have got to make Americans realize that that 
is the number one killer that is out there. If you are on our 
roadways, you are a potential victim. It seems like we still 
have a lot of education that needs to be done.
    Senator Murray. Where would you direct the impaired driving 
funds, if you could?
    Mrs. Webb. Well, I would begin with the sobriety 
checkpoints. We have seen in States how efficient and how it 
has worked in my home State of Tennessee. And in Tennessee we 
saw a 20 percent reduction.
    And the thing about that is sometimes we are not successful 
in some of these States in getting some of the key legislation 
that we know will save lives like .08 and administrative 
license revocation. But in my home State of Tennessee, we saw a 
20 percent reduction out there each and every week.
    People knew that there was that chance that they might be 
arrested. That is the deterrent factor. And we saw months after 
that that they would still have the deterrent factor, because 
they still thought they were going on.
    So it is effective. We know it is. This enforcement is so 
effective. I think that would be the perfect way to start.
    Senator Murray. Did you have a comment you wanted to add?
    Mr. McMahon. I agree fully. And when you talk about 
sobriety checkpoints, whether it is local or State agencies, 
with all of the other functions they have, that has to bring a 
certain number of enforcement officers together, and it is 
usually in addition to their patrol duties. And that is where 
funding levels are needed to do that. But they have, not only 
the psychological impact, but the enforcement impact.
    On the other hand, enforcement is the key in there, and it 
cannot just be at sobriety checkpoints. And unfortunately in 
many areas in the country, the sobriety checkpoints are the 
only time the enforcement is happening.
    So you need to have that 7 by 24, because there are people 
being killed by drunk drivers in between those enforcement 
areas. And that is critical. And I am seeing that in many other 
specialty areas that it is only happening--and that is where 
leadership comes in, more than money.
    Senator Murray. All right. Go ahead.
    Mrs. Webb. Another thing that we need to think about, you 
know, we hear so much about homeland security. The sobriety 
checkpoints is where Timothy McVeigh was apprehended. And so, 
we need to think about it in that respect too, not just to 
deter drunk drivers, but to help us with our homeland security.

                     UNSPENT ALCOHOL PROGRAM FUNDS

    Senator Murray. Thank you.
    Dr. Runge, let me go back to you for another question. 
NHTSA also administers grant programs to the States for various 
alcohol-impaired driving countermeasures, and according to your 
staff, at the end of 2001, there was more than $75 million for 
alcohol programs that remained unspent by the States from 
previous years. How do you explain that enormous unspent 
balance?
    Dr. Runge. Well, as you know, Senator, we have Regional 
Administrators who are in ten regions in the country. They work 
very closely with the States, with the governors' 
representatives for highway safety. Our role is to give them 
best practices that have been developed through our traffic 
safety program office and to help deploy them.
    We have no control. Congress gave the States the authority 
to spend what they wanted, when they wanted, and that seems to 
be what they do.
    Sometimes they get their funds late in the year so there is 
money remaining at the end of the fiscal year.
    Sometimes they save money for larger projects and, frankly, 
sometimes they do not tell us. They have to tell us how much 
money they have, but not necessarily what their plans are. So 
there are legitimate reasons for that.
    Frankly, there are some States that we would prefer would 
implement our best practices as soon as they get the money, 
rather than wait. In some cases, there are contractor problems.
    But it is really up to the States how and when to spend 
those funds. They are----
    Senator Murray. What is your office doing to make sure 
these dollars actually get used for alcohol countermeasures?
    Dr. Runge. We are in the position to give them information 
and to cajole them and to advise them. We cannot make them. We 
have had discussions over the last few weeks about a solution 
for that, which I would be happy to discuss with you.
    Senator Murray. Okay.
    Dr. Runge. It is going to have to wait for reauthorization. 
I really do not want to get into the specifics right now until 
we flesh it out a little bit better, but I would be happy to 
discuss that with you when----
    Senator Murray. As a way to help move the States to----
    Dr. Runge. Yes, ma'am.
    Senator Murray. Yes, I would be very interested in hearing 
that.
    Mrs. Webb, you mentioned in your testimony that only 17 
percent of the funds, and it says ``Section 402 State and 
Community Programs,'' are being used for alcohol-impaired 
driving countermeasures. And you said that overall only 26 
percent of all the safety grant and incentive funding is going 
for alcohol-related countermeasures.
    From MADD's perspectives, where are the States prioritizing 
these funds?
    Mrs. Webb. Well, it varies from State to State. What we are 
seeing is that some States use their funds for good programs, 
while other States do not. We have seen in many States--we have 
been very disappointed that we have not seen the use of open 
container laws enacted, or those kind of programs enacted. And 
a lot of that funding has been used for road construction, 
highway construction.
    Senator Murray. Should NHTSA take a stronger hand in making 
sure that that is enforced?
    Mrs. Webb. Well, I think what anything that we can all do, 
anything that we can do as a partnership to stop the drunk 
driving deaths and injuries on our roadways will be effective.
    Senator Murray. Okay. Let me talk about the repeat 
offenders, because about a third of all the drivers arrested or 
convicted were repeat offenders. These individuals are over-
represented in fatal crashes and less likely to be influenced 
by education and by legal sanctions.
    TEA-21 requires States to enact repeat offender laws or 
face reduction of highway funds from highway construction to 
safety or hazard elimination programs. To date, just over half 
the States have enacted repeat offender laws.
    Ms. Blakey, the NTSB put out a report a few years ago on 
the issue of hardcore drunk drivers and recommended that NHTSA 
consider changes to TEA-21 to better assist the States in 
addressing the hardcore drunk driver program.
    What does NTSB recommend for getting repeat offenders off 
the road?
    Ms. Blakey. Well, essentially, NTSB believes that a system 
is needed. It is a combination of things that need to be put in 
place.
    Number one, the States need to put a priority on the high 
BAC and repeat offenders in terms of the way they are treated 
in the law itself. And this is not just in terms of 
convictions. It also ought to be an administrative action as 
well, recognizing those individuals, screening for them and 
then assessing whether there is a real alcohol problem there 
that requires treatment. And in those cases, there should be 
mandatory treatment. The States should step up to the plate on 
that.
    We also think there should be vehicle sanctions. We--
alcohol interlock works. Interlock devices on automobiles work. 
And we have seen over time that the States where they use them, 
it is an essential part of dealing with these very difficult 
drivers.
    Also there are other things such as confiscation of the 
vehicle, confiscation of plates. And for the very hardcore 
offender, we also think it is important to have home 
confinement. Our jails are full. There are problems in terms of 
imprisonment.
    But if you look at the issue of home confinement, we now 
have the technology. It really can make that a very effective 
way of monitoring the behavior, ensuring treatment while the 
person is under confinement and really sometimes turning those 
lives around.
    Senator Murray. What has been the biggest impediment to 
getting States to implement these kinds of sanctions?
    Ms. Blakey. I think one of the biggest problems honestly is 
that there is a patchwork of laws out there. States over time 
have really tried, but they have not recognized the repeat 
offender and the hardcore driver as a very separate problem and 
one that has to be looked at comprehensively. So you have got 
this patchwork, and sometimes the laws work well together, and 
sometimes they do not.
    We also know that administrative sanctions, not just 
relying on the judicial system, but looking at it through the 
Department of Motor Vehicles and looking at what can be done 
immediately to confiscate licenses and put these people on a 
track that really focuses on their problem.
    The States need to do that. And I think they are coming to 
recognize that addressing this particular part of the drinking 
driver problem, they can do better and comprehensively.
    And we have seen some States who are doing a very good job. 
I think Michigan is one of them. Well, I could go through 
several.
    Senator Murray. Mrs. Webb, your organization has focused a 
lot on this. What can you tell us what you think the biggest 
stumbling block in getting States to enact repeat offender laws 
is?
    Mrs. Webb. Yes, ma'am. You know, in order to effectively 
address repeat offenders, States need to have comprehensive 
laws and they need to make sure that those laws include license 
restrictions and ignition interlock and other vehicle 
sanctions--you know, confinement and alcohol assessment and 
treatment as well.
    All too often, we see legislators that think that that is 
too harsh but, you know, consequently what we see is enacted in 
many States are a watered-down, piecemeal form that, do not, 
completely address the problem. They are ineffective. So we 
need more political will in the States and/or tougher laws at 
the Federal level.

                   ORIGIN OF IMPAIRED DRIVING PROBLEM

    Senator Murray. We we have funded the National Driver 
Register Program for years and we still are hearing about 
terrible, terrible tragedies caused by repeat offenders.
    I would just like to ask the entire panel: Where does the 
problem lie? Is it the States, the National Driver Register, or 
with the judicial system?
    Dr. Runge. I would love to begin----
    Senator Murray. Fine.
    Dr. Runge [continuing]. To address that, Senator. You very 
excellently characterized the problem. Chairman Blakey 
mentioned a patchwork of laws. As Senator Campbell said 
earlier, in many circumstances, impaired driving of a 
motorcycle may be viewed as suicidal, whereas driving a vehicle 
while impaired is viewed as poor judgment.
    In fact, it is homicidal. We have regarded this problem 
with a wink and a nod in this country for as long as I can 
remember, with the exception of a few people in the law 
enforcement community and the advocate community and a few 
public policy leaders who stuck their necks out to say ``Enough 
is enough.''
    NHTSA has developed best practices through the innovative 
alcohol programs and so forth, and yet we sit back and watch 
the States failing to enact what we know to be best practices. 
There are problems in some States with checkpoints that are 
Constitutional in nature. But the fact is that checkpoints 
work. I think our estimate is a 23 percent effectiveness, and 
that is double-digit effectiveness for something that is very 
simple.
    Superintendent McMahon understands this. New York's 
impaired driving programs are self-funding. There is an 
incentive to enforce the impaired driving laws.
    Charlotte, North Carolina, runs a DWI court where every 
repeat offender goes into a court--just like a drug court, with 
a judge and social workers who follow them along, get them into 
treatment and supervise them, just as if they were on 
probation.
    There are multiple best practices out there, if we could 
just get the political will in this country to do something 
about it.

                        NATIONAL LEADERSHIP NEED

    Senator Murray. Political will at the States level?
    Dr. Runge. Well, it takes leadership, I think, at the 
national level. You know, the good news is that we live in a 
federation. The bad news is we live in a federation.
    I think when you drive your kids to Disney World, you 
should be as safe going through South Carolina and Georgia as 
you are in North Carolina and Virginia. This is a national 
issue. This is not an issue for the States to decide whether or 
not they are going to aggressively prosecute and enforce drunk 
driving laws.
    It is going to require national leadership and a national 
change in the way we think about this particular problem.
    Senator Murray. Does anybody else want to add to that?
    Mr. McMahon. I agree with Dr. Runge. It needs a national 
change in how we look at impaired driving, whether it is the 
initial, whether it is the underage, or whether it is the 
repeat offender who is definitely in no question, the leading 
problem in that.
    As I said earlier, there is an apathy setting in, whether 
it is with legislators--I mean, all you have got to do is look 
at the advertising that is going on. And is there any wonder 
that kids are drinking what they are, that they are drinking?
    When it comes to the repeat offender and tough sanctions, 
there are legislators who feel that you are impacting on a 
family, and they weaken down the laws. There is courts that 
feel there is an overload, so they plea bargain down.
    And I often look at it if--and I agree with it, if you are 
a police officer and you are involved in a domestic violence 
incident, your gun is gone and your job is gone. But if you 
have got three and four DWI convictions and they have been 
reduced down or something, and then we hear this, ``Well, you 
know, his family is going to be impacted,'' and it gets reduced 
down.
    I mean, I do not understand, you know, the ``Go after the 
law enforcement's job,'' which I agree, but to let this person 
continue to drive, continue to--potentially, there will be an 
accident that is eventually going to kill someone.
    And when that happens, and when we cannot get those kinds 
of laws through and throughout the State, because I talk to my 
counterparts--how do we as leaders then tell our troopers or 
patrolmen, ``This is important. Get that person off the road. 
Be out there looking for them?'' And then it goes in and gets 
reduced down. Nothing happens. The person is back driving 
again.
    And part of the issue on the repeat offender, where there 
needs to be some kind of standard from State to State is those 
that are driving while they are revoked for alcohol offenses, 
that should be equally as serious. Cars should be seized. 
Plates should be seized at the scene. But that should be 
considered equally as serious as those that are--the repeat 
offender that is driving with a license again on that in the 
alcohol related areas. And that is not being addressed.
    Ms. Blakey. I would mention one other problem in this, and 
that is that we are seeing an increase in refusing to take 
blood alcohol tests. So that--we have test refusals out there 
where people know that they will actually have a lower sanction 
by simply not taking the test than being convicted on an 
alcohol-related offense. We think that needs to be addressed as 
well.
    So you have issues before the judiciary. You have issues 
before the State legislatures. And certainly you all will have 
an opportunity too with the next version of TEA-21--Next-T, 
whatever we are terming it--I think to really set some 
leadership there in terms of the hard-core drunk driver with 
some of these best practices that Jeff and others have talked 
about that really do work.
    Senator Murray. Thank you very much.
    Senator Campbell, do----
    Dr. Runge. Senator, can I add one thing?

                         REPEAT OFFENDER FUNDS

    Senator Murray. Yes, absolutely.
    Dr. Runge. You touched earlier on the repeat offender money 
that the Committee wanted us to spend this year in 2002. Our 
earmark this year focuses on educating judges and prosecutors 
and trying to let them know what is available, interlocks, DWI 
courts, and so forth.
    As Superintendent McMahon mentioned, this is a critical 
piece of the system, that we think has been neglected, and we 
appreciate the opportunity to do that.
    Senator Murray. Okay. Thank you.
    Senator Campbell. Thank you, Madam Chairman.
    My father was an alcoholic. And, boy, I am going to tell 
you: All I remember from when I was a kid was how alcoholism 
can just literally destroy a family. And so I do not drink 
except an occasional beer on the 4th of July. I do not need it.
    But I used to be a police officer years ago, and I guess 
because of my own background and the experience I had in law 
enforcement, I am convinced that alcoholism is a sickness that 
you just cannot cure by tougher penalties. It does not work. It 
did not work for my dad. And it does not work for anybody else 
either.
    And the trouble with just simply increasing penalties is 
that you backlog the courts; you need more manpower; you 
overcrowd the jails. You do all these things that you have got 
to be prepared to pay for and probably does not cure it anyway, 
because when the guy comes out of all that, he will go back to 
drinking unless he has had some treatment.
    So it just seems to me that we ought to be focusing more of 
our resources on treatment and recovery programs too. I do not 
know if you were watching television last night Madam 
Chairperson, but there was a part on CBS, Dan Rather, and I 
think it was on all channels last night, a recent study about 
teenage drinking in the United States. It said one-fourth of 
all liquor in the United States now is being consumed by 
teenagers, one-fourth by teenagers.
    And I would assume that those teenagers also are having 
higher incidences of accidents, if they are doing that much 
drinking. It also said that the teenagers--in the survey of 
these teenagers, they said they get involved in binge drinking 
at least once a month. Tougher penalties are not going to fix 
that. Something has to kick in about education for those young 
kids too.
    I am on the Treasury Appropriations Subcommittee, and we 
put an awful lot of money into drug abuse programs, into a 
national television campaign. We put over half a billion 
dollars, in fact, the last 4 years on trying to get youngsters 
to leave drugs alone. And I think that we probably ought to be 
doing something in the same way along the lines of alcohol too, 
trying to do some kind of a massive program to convince kids 
that they do not need it.
    But I guess the question I wanted to ask is in two parts. 
One, what responsibility do you believe the industry has in 
this? Maybe, Mrs. Webb, maybe you would like to participate in 
that.
    You know, for instance, in our State, one of the largest 
beer breweries in the country is Coors Beer. I think they have 
a very responsible program. They encourage not driving if you 
are drinking. They encourage moderate use and careful use of 
drinking beer, which is not nearly as bad as some of the hard 
liquors.
    But what should industry be doing and what should we do if 
we have to get involved in trying to make industry do 
something?
    Mrs. Webb. Well, what we need to see is responsibility. And 
certainly there are--I have seen a few of Coors' ads and they 
are certainly responsible, but you have to look at the other 
side of the scale for those that are not, those that depict 
frogs and cartoons and, you know, we hear--we see a lot more of 
those.
    The entire industry does. And the broadcast networks need 
to be responsible. We need to see the same kind of high 
standard set for not just wine and liquor, but--hard liquor, 
but for the beer industry as well. We need to make you know, 
our children are being bombarded on a daily basis.
    But, you know, what you mentioned about young people and 
alcoholism and their drinking, you know, MADD realizes that, 
our young people--you know, you are so right when you said that 
our young people are drinking at an earlier age, and so we have 
now tried to educate young people.
    And we now have a new program, ``Protecting You and 
Protecting Me,'' which educates our young people beginning in 
grades one through five about the real damage that drinking can 
do to the brain. And it encourages them to let that brain be 
the best that it can be and let them then grow to the potential 
in which they deserve to be.
    It also talks--you know, we have mentioned today about the 
fact that two-thirds of the young people that are killed are 
killed by someone that is--an adult that has been entrusted to 
their care. And this tells them, what to do--you know, buckle 
up--be safe.
    We have got to start at a young age, and that--I think that 
will help you with that question when you ask about ``How are 
we going to deter young people?''
    Senator Campbell. Yes. That study, by the way, also 
mentioned that the effects of alcohol on youngsters is worse 
than adults, that it actually destroys part of the brain in 
youngsters that it does not with adults.
    Mrs. Webb. That is exactly what this ``Protecting You, 
Protecting Me'' educational curriculum is based on, the fact 
that the brain is hurt.
    Senator Campbell. Yes. And maybe one final question, too, 
of Mrs. Webb: There are gizmos now, and I do not know what they 
are called. But you cannot start your car.
    Senator Murray. Interlocks.
    Ms. Blakey. Interlocks.
    Senator Campbell. What are they called? You have to breathe 
into--I do not know--some kind of a thing where you cannot 
start it if there is alcohol on your breath. And I do not know 
how that works. It is some system. But would you recommend that 
manufacturers have those required on the cars by law?
    Mrs. Webb. Well, we would like to submit to you our high-
risk driver program, which includes--a part of that program is 
ignition interlock.
    But also you mentioned earlier about your father being an 
alcoholic. You know, we, too, know that we cannot just have 
punishment. We know that there has to be mental health care and 
assessment, not just go in and go out, but regular, you know, 
monthly assessment by caretakers, you know.
    No one is happier than Mothers Against Drunk Driving when 
those people turn their lives around. And I think if you will 
study our high BAC and repeat offender program, which has had 
the support of the NTSB and NHTSA, I think you will be very 
happy about it. And maybe it would have prevented some of the 
tragedy that your life has held.
    Senator Campbell. Yes.
    Thank you, Madam Chairperson.

                        SEAT BELT GOAL REVISION

    Senator Murray. Thank you. Let me talk about some of the 
safety goals for 2003 for a minute.
    Dr. Runge, as I said in my opening statement, you lowered 
your seat belt goals from 87 percent in 2002 to 78 percent in 
2003. And your 2003 budget proposes to cut core occupant 
protection programs and Click It or Ticket program by a total 
of 51 percent.
    How do we justify lowering the goal and cutting the budget 
when over 40,000 people die on the highways every year, and 
seat belt use is the number one preventative measure that we 
have?
    Dr. Runge. Thank you for the chance to clarify that. My 
goal for seat belt use is 100 percent. It is 100 percent. There 
should be no one riding around in this country without wearing 
a seat belt or buckled into a child safety restraint.
    What we have done is to try to create some targets that we 
can actually measure for accountability for ourselves and for 
our partners in the States, so that we actually look at a 
realistic number of what we might expect to meet or exceed by 
the end of fiscal year 2003.
    The number of 78 percent was arrived at through two 
methodologies, and they have both zeroed in on exactly the same 
number. It has to do with the conversion of non-users.
    If we convert eight and a half percent of non-users 
throughout the States, we will arrive at a nationwide number of 
78 percent. This is not backing away from a goal.
    My goal is 100 percent seat belt use in this country. We 
have 90 percent child restraint use for children under two now. 
That is great. We know that it can be done.
    Senator Murray. I am confused, because I thought the 
Administration set goals beginning last year and that by 2005, 
they had a goal of 90 percent.
    Dr. Runge. That was actually set in 1995 in the previous 
Administration.
    Senator Murray. Okay.
    Dr. Runge. And if you would look at the trend over time, it 
is a goal that is not going to be met.
    Senator Murray. So we just lower our expectation?
    Dr. Runge. You can say that, but what it really does is 
introduce some accountability. If we say 90 percent by 2005, we 
do not have a hope of meeting that goal, so why try?
    Let us put into effect a target that we can actually use 
for accountability. It is based on good data and good science, 
which with all due respect to those who were there making those 
goals in 1995.

                       NEED FOR NEAR-TERM TARGETS

    Senator Murray. Well, actually, I have to tell you, 
Secretary Mineta was here a year ago in front of my Committee 
and said that it was his goal.
    Dr. Runge. Right. It has been Secretary Mineta's goal. We 
looked at it this year and came up with the sound methodology 
for--for having some near-term targets, not for 2005, but for 
2003, of 78 percent.
    Senator Murray. But the goal for 2003 was 87 percent, 
correct? And we have now lowered it to 78.
    Dr. Runge. Right. We are at 73 percent now.
    Senator Murray. So are we just saying we just cannot reach 
it, so we lower the goal?
    Dr. Runge. Well, seventeen States have enacted primary seat 
belt laws. If you look at States across the country with 
secondary seat belt laws, there is no hope of getting to 85 
percent across all those States.
    Our data shows that they will generally cap at about 75 
percent. So the emphasis has got to be, over the long haul, of 
getting States to pass primary seat belt laws and getting 
police officers to enforce those laws.
    Senator Murray. Now, I----
    Dr. Runge. That is the only way we are going to get there.
    Senator Murray. I believe in realistic goals. But I also 
believe when you lower your goals like that, you send a very 
bad message about where priorities are and what your 
expectations are for people.
    Dr. Runge. That is why I am clarifying that. The goal is 
100 percent. The target that we are trying to reach by the end 
of 2003 is 78 percent, which is a generous increase over the 73 
percent we have now. And, in fact, we are talking about a range 
of 2,000 lives saved if we can get to that point, not to 
mention mitigating scores and scores of injuries.

                       CLICK IT OR TICKET PROGRAM

    Senator Murray. Let me ask you about a particular program, 
the Click It or Ticket program. We provided $11 million for 
that last year and we know that seat belt use jumped by 9 
percent during the 2001 demonstration in the Southeast.
    Your budget eliminates that funding. Why, when we know that 
that works? That would help us reach the goal that we have out 
there.
    Dr. Runge. There is no question that high visibility 
enforcement increases seat belt use. I will be coming back to 
you through the normal processes once we have shown that this 
methodology works.
    I very much appreciate the cooperation of you and your 
staff in working with us closely on this program. We have 12 
States that are geographically and ethno-graphically diverse, 
but we are going to put the cross-hairs on the more difficult 
to convert people and recruit not just the State law 
enforcement, but the local guys, the sheriffs. The local guys 
have to be the ones to get the job done.
    This is a ground war with air support. And the monies you 
provide will allow that air support to occur through paid 
media.
    Once we have that methodology established, the high 
visibility enforcement messages can sell not only in the 
Southeast, but across the country. We will be taking aim at 
that program in a nationwide campaign.
    Senator Murray. Superintendent McMahon, New York has one of 
the programs where we are doing this. Can you talk a little bit 
about it?
    Mr. McMahon. Yes. And I mentioned it. Let me, if I could, 
Madam Chairwoman, speak to what you asked Dr. Runge there. I 
was not familiar with the reduction, but I agree with 
attainable goals. That is what ours was.
    With the New York program, we had made it to 74 percent. 
And we were stagnant because you have now reached who you are 
going to reach with awareness and with education.
    From 74 percent on, it is enforcement. You are at the hard 
core. I have submitted a chart with my testimony, which shows 
as comprehensive as our effort was, from 74 percent on, each 
tenth wave of zero tolerance enforcement, we would go up two to 
four percentage points in compliance.
    Between those waves, even with continued enforcement, if it 
was not there, we would drop down and maybe have a net gain of 
between one and 2 percent. So from 74 percent on, you are going 
to get--you know, it is going to be gradual. If you have got a 
good enforcement program that involves all law enforcement, but 
it is going to be a gradual, you are not going to see 10 
percent jumps. You are not going to see 5 percent jumps at one 
time.
    That is with a primary State. Yet there is only 17 States 
with primary laws. And you are not going to have strict 
enforcement with secondary laws.
    And the statistics are, I think, it is 15 percent higher 
compliance rates in the primary States than the secondary 
States. So I think that is much more obtainable, because if you 
set goals that are not realistic, and then you do not meet 
them, how do you go back to law enforcement?
    One of the ways that I went to the State and locals, I 
wrote every police chief, 540 of them, letters. We had our 
troop commanders meet with every police chief and showed them 
what this was about, saving lives. It was not about ticket 
quotas. It was not about making money for the State. It was 
about saving lives and it is the easiest way.
    We had that goal. We hit it. Well, we missed it by seven 
deaths. We hit 141. And we went back and showed everybody that.
    And we had an award system for those departments that 
participated. If I had set that at 90 percent, which I would 
have liked to have been to, or 95 percent or 100 percent, I 
could not have done that. Now, we are moving it up again. But 
it is going to--it--when we hit that 90 percent, I might move 
it up by one or 2 percent, because it is going to be harder and 
harder as we go up in those gains.
    So I agree with--I think the initial might not have been 
attainable at all, especially when you only have 17 States with 
primary laws.

                     TARGETING DIVERSE POPULATIONS

    Senator Murray. Dr. Runge, let me go back to you for 1 
second. When I talked in my opening statement, I talked about 
the fact that black children ages five through twelve face a 
risk of dying in a car crash that is three times as high as 
white children; and the need to address motor vehicle deaths by 
Native American populations.
    I did not see any new initiatives obviously in your budget, 
but is your agency looking at anything to try and address those 
populations?
    Dr. Runge. Absolutely. And you should know that part of the 
Click It or Ticket campaign was in the Southeast and that we 
are implementing it across the country. We have focused on 
where we are going to get the biggest gains. I am a pie chart 
kind of guy. If you look at the biggest possible gains, it is 
very clear that we need to address the issues of minority belt 
use and child safety seat use.
    There are a host of infrastructure problems that need to be 
addressed. These are not necessarily behavioral. They include 
availability of seats, first of all, and vehicles that may not 
be as crash-worthy and may lack the three-point restraints that 
newer vehicles have.
    But behaviorally, we have several contractors that we work 
with to help us reach the minority populations and identify 
what will make them respond behaviorally to do this.
    The faith community has been a fabulous ally in the 
Southeast. I think Superintendent McMahon has had the same 
exact experience in New York. This is about saving your 
children and taking care of your body.
    It is not necessarily about getting a ticket. We are 
looking at many programs that are culturally sensitive and that 
take into account differences that we have in our very diverse 
population.
    We have a program that is called ``Corazon da Mi Vida.'' 
That is the best Spanish I can muster. It is, basically, ``You 
are the center of my life.'' It talks about how you do not love 
a baby by holding it in your lap. You love a baby by putting it 
in the arms of a child restraint.
    So, through programs like that, through the insight of many 
people that we have been working with, we understand the 
tremendous importance of that, and intend to use our resources 
as wisely as we can in those areas.
    Senator Murray. I appreciate that and look forward to 
working with you on those initiatives. We are running out of 
time and I am going to ask one more question, and then we will 
adjourn for the day.

                         LOBBYING RESTRICTIONS

    Dr. Runge, I am curious. The transportation appropriations 
bills from the last several years have included language that 
restricts the agency's ability to lobby on legislation that is 
pending before State legislatures. Do you believe those 
restrictions have impeded NHTSA's ability to get its agenda 
done?
    Dr. Runge. Yes, ma'am, I do.
    Senator Murray. If that was not in place, would you intend 
to travel the State legislators to try and advocate for some of 
the things we have talked about today?
    Dr. Runge. I have talked to several of your colleagues, 
both on the House side and the Senate side about the nature of 
that. I understand how it happened.
    I think some of it was due to some possibly over-zealous 
materials and some things that resulted in some push back from 
Congress.
    Having said that, the fact is that we have 17 States with a 
primary belt law. The States can currently request information. 
They can request an appearance, but unless they do, we are 
basically forbidden from getting them the information that they 
need, once a bill is introduced, to come down on one side or 
the other.
    I absolutely would welcome the opportunity to talk with our 
colleagues in the States and bring them the technical 
information that they have been paying for over the years that 
will--that will give them the data that they need to pass good 
sound public policy. It is a long yes.
    Senator Murray. Thank you very much.

                         CONCLUSION OF HEARING

    And thank you, all of you, for coming today on this 
important topic. We are recessed until a week from tomorrow, 
Thursday.
    [Whereupon, at 11:20 a.m., Wednesday, February 27, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]


</pre></body></html>
